<html>
<title> - H.R. 5820, THE TOXIC CHEMICALS SAFETY ACT OF 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







           H.R. 5820, THE TOXIC CHEMICALS SAFETY ACT OF 2010

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2010

                               __________

                           Serial No. 111-151





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

78-128                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JANICE D. SCHAKOWSKY, Illinois       CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN SARBANES, Maryland              RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   ED WHITFIELD, Kentucky
FRANK PALLONE, Jr., New Jersey       GEORGE RADANOVICH, California
BART GORDON, Tennessee               JOSEPH R. PITTS, Pennsylvania
BART STUPAK, Michigan                MARY BONO MACK, California
GENE GREEN, Texas                    LEE TERRY, Nebraska
CHARLES A. GONZALEZ, Texas           MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina
JOHN BARROW, Georgia
DORIS O. MATSUI, California
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE L. BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex officio)








                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     2
    Prepared statement...........................................     4
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     9
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    10
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................    10
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    11
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    12
    Prepared statement...........................................    14
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    17
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    17
    Prepared statement...........................................    19
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    24
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................    24
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................    25
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    26
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    27
Hon. Zachary T. Space, a Representative in Congress from the 
  State of Ohio, opening statement...............................    28

                               Witnesses

Steve Owens, Assistant Administrator, Office of Chemical Safety 
  and Pollution Prevention, Environmental Protection Agency......    29
    Prepared statement...........................................    32
Richard Denison, Senior Scientist, Environmental Defense Fund....    37
    Prepared statement...........................................    39
Cal Dooley, President and Chief Executive Officer, American 
  Chemistry Council..............................................    46
    Prepared statement...........................................    48
    Answers to submitted questions...............................   230
Ken Cook, President, Environmental Working Group.................    55
    Prepared statement...........................................    57
    Answers to submitted questions...............................   247
Howard Williams, Vice President, Construction Specialties, 
  Incorporated...................................................    79
    Prepared statement...........................................    82
Mark Mitchell, President, Connecticut Coalition for Environmental 
  Justice........................................................   157
    Prepared statement...........................................   159
Beth Bosley, Managing Director, Boron Specialties, LLC, Society 
  of Chemical Manufacturers and Affiliates.......................   163
    Prepared statement...........................................   166

                           Submitted Material

Statement of Charles M. Auer, submitted by Mr. Whitfield.........   188
    Statement of the National Petrochemical & Refiners 
      Association................................................   204
    Letter from American Cleaning Institute, Grocery 
      Manufacturers Association, and Consumer Specialty Products 
      Association................................................   210
    Letter from chemical interest groups.........................   212
    Letter from CropLife America.................................   214
    Letter from National Association of Manufacturers............   216
    Letter from Pine Chemicals Association.......................   218
    Letter from Retail Industry Leaders Association..............   220
    Letter from the Vinyl Institute..............................   224
    Letter from the National Association of Chemical Distributors   226
    Letter from the American Chemistry Council...................   228

 
           H.R. 5820, THE TOXIC CHEMICALS SAFETY ACT OF 2010

                              ----------                              


                        THURSDAY, JULY 29, 2010

              House of Representatives,    
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Bobby Rush 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Rush, Schakowsky, 
Sarbanes, Sutton, Pallone, Green, Gonzalez, Barrow, Castor, 
Space, DeGette, Dingell, Waxman (ex officio), Murphy of 
Connecticut, Whitfield, Pitts, Murphy of Pennsylvania, Gingrey, 
Scalise, Latta, and Barton (ex officio).
    Staff present: Bruce Wolpe, Senior Adviser; Michelle Ash, 
Chief Counsel; Tim Robinson, Counsel; Robin Appleberry, 
Counsel; Tracy Sheppard, Counsel; Jacqueline Cohen, Counsel; 
Melissa Bez Cheatham, Professional Staff; Rebecca Brown, 
Fellow; Peter Ketcham-Colwill, Special Assistant; William 
Wallace, Special Assistant; Elizabeth Letter, Press Assistant; 
Billie McGrane, Press Intern; Monica La, Energy and Environment 
Intern; Jerry Couri, Senior Professional Staff; Brian 
McCullough, Senior Professional Staff; Shannon Weinberg, 
Counsel; and Sam Costello, Legislative Analyst.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The Subcommittee on Commerce, Trade and Consumer 
Protection will now come to order. The Chair wants to recognize 
all who are gathered here. The Chair would like to extend his 
welcome to the witnesses who are here, and the Chair recognizes 
himself for 5 minutes for the purposes of an opening statement.
    Today we are pleased to welcome all of our seven witnesses 
who represent a wide range of views on the state of chemical 
regulation in the U.S. I know that each and every one of you 
are very concerned about the proper role of the EPA in 
assessing chemical risk, hazards, exposure, and safety as they 
relate to subject of human health, public safety, and the 
environment. And I look forward to listening to the testimony 
of the witnesses and their reactions to H.R. 5820, The Toxic 
Chemicals and Safety Act of 2010, which I proudly co-authored 
and introduced in the House of Representatives along with our 
Full Committee Chairman, Chairman Waxman, one week ago last 
Thursday.
    Because we anticipated that we would introduce a major 
chemical reform bill before the August recess, Mr. Waxman and I 
invited critical stakeholders beginning in early May 2010 to 
comment and participate in, in person I might add, at a number 
of stakeholder sessions on a draft discussion that serves as a 
precursor to the bill that is the subject of today's hearing.
    My own role in all of this was to put forth a bill that all 
sides would not necessarily fall in love with, but a bill that 
they can actually live with. Just like the hundreds of millions 
of Americans must live with chemical substances, mixtures, and 
articles that they put on their bodies and found in containers 
where they store their food and water, and then they put onto 
their breakfast, lunch, and/or dinner tables of their families, 
their loved ones before putting it into their precious, 
precious bodies.
    One thing that is absolutely clear to me is that Americans 
want, need, and demand to know much more than they have ever 
known in the past. They want to know what chemicals are in 
their consumer products, what chemicals are in their food and 
drink, what chemicals are in their homes, their surrounding 
communities, and throughout their environment. Americans are 
also demanding to know what are the associating use, hazard and 
exposure risk and harms. Are they from these chemicals to their 
own health, and to the health of their families and to the 
environment?
    This hearing and this bill will open this important 
discussions about these important issues and regulatory 
dysfunction beyond just the players inside the Washington 
Beltway by meaningfully shifting the burdens to industry all 
along this consumer and industrial goods supply chains to 
provide much to this missing scientific and health and 
information to the EPA. The American people who have far too 
long been left out of the loop on these matters will be far 
better off tomorrow than they are today.
    With that I again want to thank the witness and I yield 
back the balance of my time, and I recognize now the Ranking 
Member, Mr. Whitfield for 5 minutes.
    Mr. Whitfield. Thank you, Mr. Chairman. Thank you Mr. 
Chairman and is my microphone on?
    Mr. Rush. Is his microphone on?

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. OK, thank you. Not that you all would miss 
anything by not hearing what I would say, but first of all I 
want to welcome all the witnesses. We look forward to your 
testimony on a very important subject. It is my understanding 
in 90 percent; six percent of all manufactured goods in America 
are involved in some way with chemicals. And yesterday on the 
House Floor we passed a bill setting up a National Strategy 
Board to encourage more manufacturing jobs in America. And 
Majority Leader Hoyer and Speaker Pelosi have adopted just 
recently a theme, Make It in America, and all of us certainly 
support that.
    But when you look at this legislation, not trying to be an 
obstructionist, not trying to just create problems to be 
creating problems, but when you analyze this bill we have 
serious concerns with this bill. And many of us genuinely 
believe that if this legislation is passed as written and as 
amended then instead of helping us create more jobs in America, 
it will help us lose more jobs in America. I am not going to go 
over all my concerns. I am just going to list a few.
    Under this legislation a company trying to make a new 
product will need to run an assessment not only of the product 
as they intend to use it, but for also any other area in 
Commerce where a consumer may come in contact with that 
product. This could be especially problematic for automobile 
makers and many other manufacturers. The approval process 
through the EPA is impossible. Hundreds of toxicologist and 
risk assessors will need to be hired even with the extra 
staffing it will be long, cumbersome and time consuming if 
Reach is an example, their offices have been overwhelmed with 
paper just on the study portions. The so called Safe Standard 
is so complex and involved with its conditions and caveats I am 
not sure what chemical would be able to meet it. The bill 
compromises confidential business information by requiring that 
businesses file all the data on their product and make some of 
the information through public databases. And finally this bill 
creates a user fee to fund the entire operation of the bill, 
yet the user fee is not directed to go to the agency or its 
chemicals program.
    I would also just like to read from the testimony some 
experts on this subject. H.R. 5820 as currently drafted 
promotes unworkable approaches to chemicals management. As a--
on the Safety Standard this comment was made. The Safety 
Standard established in this bill sets such an impossible high 
hurdle for all chemicals in Commerce that would provide--that 
it would produce technical, bureaucratic, and commercial 
barriers so significant that that law would be ineffective and 
unworkable. On the new chemicals portion, H.R. 5820 is so 
overly broad that there would be adverse effects in the amount 
of upfront data required before a new chemical could be put on 
the market; was so complex that the result will be that this 
innovation moves to other countries to produce chemicals with 
more manageable regulatory regimes and the production of these 
new chemistries would move there as well. We would be exporting 
innovation and jobs instead of products.
    H.R. 5820 puts the burden of compliance on the retailer and 
other importers in a manner that is unworkable, unenforceable, 
and not compliant with International Trade Laws. H.R. 5820 does 
include some improvements over the discussion draft, but its 
foundation is still unworkable. So we have genuine concerns 
about this legislation. We think it is vitally important that 
TCSA be reformed and we do look forward to working with the 
witnesses, with the majority, and everyone to adopt a plan that 
is workable, that uses, basic common sense, and provides a 
balance. Thank you.
    [The prepared statement of Mr. Whitfield follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The Chair now recognizes the Chairman of the 
floor Committee, my friend from California, Mr. Waxman, for 5 
minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. The Toxic 
Substances Control Act was enacted in 1976 to product the 
American People from exposures to toxic chemicals and to steer 
our chemical industry toward safety and innovation. These were 
laudable goals and one's we still can agree on. But 34 years 
later those goals have not been met. TSCA has been tested and 
found severely deficient. This statute has been fundamentally 
unchanged for 34 years where it has been amended it is with new 
titles that address discreet issues and bypass the unworkable 
structure of the current law. TSCA has become a patchwork, but 
not a framework. Today Americans are exposed to a staggering 
number and variety of chemicals even before birth. Yet 
consumers lack basic information about these chemical exposures 
and the Federal government is no less in the dark.
    EPA lacks critical information about chemical hazards and 
exposures even though it needs to make decisions about them and 
they lack the authority to take action even where the risk is 
clear. The result is that the U.S. is not leading the global 
move toward safer chemicals, American's public health is not 
being protected, and American businesses are behind the curve 
when they should be leading the world in innovative and safe 
chemical development. We can do better and the legislation 
Chairman Rush and I and several of our colleagues have 
introduced will modernize this law.
    This bill will address the failures of TSCA and set up a 
flexible, responsive, and workable system for protecting health 
and the environment while promoting American jobs and 
innovation. Under this legislation all chemicals will be 
subject to a safety review and the burden of proof will be 
rightly shifted from EPA to chemical manufacturers. Basic 
safety data will be generated and made public, commercial users 
of chemicals will get the information they need to make better 
business decisions. New policies will encourage the development 
of safer chemicals and created the green jobs of tomorrow. 
These are major steps forward.
    This Subcommittee has held three hearings this Congress on 
this important issue. Draft language was circulated in April, 
followed by a robust and comprehensive stakeholder process. 
This dialogue was requested by industry and welcomed by 
environmentalists to move legislation forward and it has 
resulted in the text we are considering today. There is work 
still to be done and I look forward to further constructive 
conversations with my colleagues, all of them, about how best 
to achieve our common goals.
    This bill is the right starting point for this 
conversation. It is ambitious but also workable, and I believe 
it is the right thing to do for American consumers and 
businesses alike. I want to thank Chairman Rush for his 
leadership on this issue and the Minority for their involvement 
in the stakeholder process. Just like Chairman Rush, I am 
hopeful that TSCA reform can proceed on a bipartisan basis and 
with continued input from the stakeholders. We all want 
legislation that improves protection for public health and the 
environment, as well as continued innovation and job 
production. I thank all of our witnesses for being here today 
and I look forward to their testimony. Thank you, Mr. Chairman.
    Mr. Rush. The Chair thanks the Chairman of the Full 
Committee. The Chair now recognizes Mr. Pitts for 2 minutes.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this hearing on H.R. 5820, The Toxic Chemicals Safety Act of 
2010. Let me begin by saying that none of us wants harmful and 
dangerous chemicals to endanger public health and the 
environment. I have children and grandchildren and 
grandchildren and their safety and wellbeing is of the upmost 
importance to me. However, this bill before us today creates 
such a burdensome framework for chemicals to be approved that I 
am concerned that it will not actually achieve its intended 
purpose.
    The existing law, The Toxic Substance Control Act is 
responsible for identifying and regulating toxic substances in 
the United States Commerce. It is a risk base statute that 
requires the EPA to regulate against unreasonable risk and to 
do so in a--in the least burdensome way. The existing law also 
contains preemption provisions that do not allow states to 
establish testing and other requirements that conflict with 
existing federal laws. Yet H.R. 5820 completely revamps TSCA 
and mandates unrealistic testing which essentially calls for 
the complete absence of any risk associated with a chemical.
    According to the National Association of Manufacturers this 
is ``an impossible goal that will hamper lower risk beneficial 
products from coming to the market.'' In addition NAM calls the 
new safety standard ``an unworkable risk assessment methodology 
for every chemical substance and for all EPA prioritized 
mixtures.'' Additionally Section 18 of H.R. 5820 eliminates 
federal preemption by permitting that each state or locality to 
enact any law regulation on chemicals under the purview of TSCA 
as long as compliance with both federal and state law is not 
impossible. Mr. Chairman, if this bill becomes law severely 
hamper our economy, it will hamper innovation, it will 
encourage chemical companies to go offshore and unemployment 
will increase, and our nation will suffer.
    I urge a thoughtful reconsideration of this bill while 
carefully evaluating risk including hazards, exposures, 
intended uses, and the impact to the economy and let those--
these factors inform and guide our any regulatory action. I 
appreciate the witnesses being here today, look forward to 
listening to their testimony, thank you, and I yield back.
    Mr. Rush. The Chair recognizes the gentleman from New 
Jersey, Mr. Pallone for 2 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I do have to start 
out by responding to Mr. Whitfield's comments. I like Mr. 
Whitfield a lot but I have to that on the one hand I was happy 
that he recognized the Democratic agenda of Make It in America. 
And he also indicated that he supports it. I was a little 
surprised because I think that many times Republican support of 
free trade bills, which we had a proliferation under President 
Bush, you know don't seem to do much to protect American jobs, 
and I am often really not sure if the Republican leadership 
really cares about preserving jobs here anymore with all their 
free trade advocacy. But I know now that at least Mr. Whitfield 
at least supports our Make It in America agenda and I do 
appreciate that.
    I also wanted to thank you, Mr. Chairman for holding the 
hearing today on a very important subject and that is TSCA. The 
original TSCA law was enacted in '76, and it is clear that this 
law had failed to sufficiently--failed to protect public health 
and our environment. It was supposed to allow the federal 
government to keep harmful chemicals out of Commerce, but 
provisions in the law have kept EPA from being able to collect 
the data necessary to even determine what chemicals are 
harmful. With over 80,000 chemicals in Commerce in the U.S., 
and roughly 700 new chemicals introduced every year, EPA has 
only been successful in regulating limited use of five 
chemicals under the TSCA statute. And the provisions in this 
will place so much burden on the EPA they even run into trouble 
banning asbestos which we know is extremely hazardous to human 
beings.
    The problem stems from the burden being placed on the EPA 
to approve a chemical is unsafe when the agency does not have 
access to the data required to make that case. Reform is 
necessary and I commend the committee and the EPA for taking 
this issue seriously. I think that the legislation before us 
would make a big difference. And I also wanted to mention that 
the EPA Administrator Lisa Jackson invited members of this 
Subcommittee to her office to personally discuss this issue 
last year. And it was nice to have the opportunity to sit down 
with her and talk about TSCA, because I know she is very 
concerned about it. Thank you, Mr. Chairman.
    Mr. Rush. The chair thanks the gentleman. The Chair now 
recognizes Mr. Latta for 2 minutes.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Thank you, Mr. Chairman, Ranking Member 
Whitfield, thank you for conducting this hearing on The Toxic 
Chemicals Safety Act of 2010 which will have a significant 
impact on the Midwest. I represent the fifth District of Ohio 
which is the State's largest agricultural and manufacturing 
district. As we are all too painfully aware, America's 
manufacturing sector has been hard hit. In my district many 
farmers are dependent on these outside manufacturing jobs to 
supplement their agricultural incomes. I strongly feel that we 
cannot pass the proposed legislation in its current form since 
manufacturing and agriculture would be put at a great 
disadvantage against our overseas competitors.
    Congress needs to help businesses by encouraging job 
growth, helping to spur innovation, and retaining jobs in the 
United States. I have grave concerns that the EPA under its 
broad authority within this legislation would do more harm than 
good. American farmers and ranches provide hundreds of millions 
of people with the safest, most affordable, and most abundant 
food supply in the world. This is all done with less than two 
percent of Americans engaged in agriculture compared to 40 
percent in 1900. This legislation will lay claim to many 
chemicals and keep valuable food and commodities off the 
shelves from American families.
    Our American farmers and ranchers are the environmental 
stewards of this earth and they do everything in their power to 
protect it, their families, and their neighbors. This 
legislation will be extremely disruptive and detrimental to AG 
production. As members of Congress we have an obligation to 
protect human health and the environment, however many can 
argue that this bill fails to accomplish this instead will cost 
American jobs, lower the standard of living, and will empower 
our overseas competitors.
    Mr. Chairman, I look forward to today's hearing and hearing 
from our witnesses. And I hope the Subcommittee keeps in mind 
that chemicals affect roughly 96 percent of our daily lives, 
and this bill will need to be thoroughly better. Thank you, Mr. 
Chairman, and I yield back.
    Mr. Rush. The Chair now recognizes the Chairman Emeritus of 
this small committee, my friend from Michigan, Mr. Dingell, for 
5 minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I thank you for your courtesy, 
and I commend you for holding this hearing today. There is wide 
agreement and experience tells us that The Toxic Substances 
Control Act needs to be reformed. After 33 years it has been 
blatantly clear the law needs a thorough examination and 
reauthorization. We have heard about this from industry, from 
environmental groups, and from consumer advocacy organizations. 
Indeed EPA has not banned a single chemical under TSCA for 
nearly 20 years.
    Despite our best intentions back in 1976, TSCA is not 
working as we hoped that it would when it was enacted. We 
simply must be doing something in an effort to protect the 
public from exposure to harmful chemicals. This must be done by 
using sound and reliable science as the basis. Further, I must 
bring up an important factor that all too often gets neglected: 
funding. As we work to reauthorize and revise TSCA, we must 
work to have an adequate and consistent stream of funding for 
the program. Without proper funding we will not get results and 
will lead to a constant source of frustration for everyone 
involved including industry which desperately needs certainty 
in order to compete in a global marketplace.
    I am pleased that the committee has convened a series of 
stakeholder discussions. This is very important and it is 
important to consumer advocates, environmental groups, and 
industry play a role as this process moves forward. I sincerely 
hope that the process continues and that stakeholders will 
continue to be consulted as we move forward. I would note that 
we are still at the beginning of this process and not at the 
end. And while I feel we must move with speed and 
expeditiousness, I want to point out that undue haste can 
result in serious problems.
    Mr. Chairman, we have our work cut out for us in reforming 
The Toxic Substances Control Act. We clearly need to protect 
the public, but we need to do so in a way that does not stifle 
innovation and that protects American manufacturing and 
industry, something that we have been hearing quite a bit about 
lately. The United States has at this time a very fragile 
economy and we cannot afford to lose any more jobs in this 
country than we have already lost. In fact we have to work to 
actually create jobs through legislation like this.
    This committee has a long and a proud history of taking on 
the most difficult legislative challenges and turning out good 
quality and not infrequently bi-partisan bills that have gone 
on to be both successful in terms of protecting people that we 
represent and protecting their jobs and financial security. I 
am hopeful that reforming The Toxic Substances Control Act 
could be another story of success by this committee. I look 
forward to hearing our witnesses and to working with you, Mr. 
Chairman and the Committee on this important matter. I yield 
back the balance of my time.
    Mr. Rush. The Chair now recognizes the gentleman from 
Texas, my friend, Mr. Barton for 5 minutes, the Ranking Member 
of the Subcommittee.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Well, thank you, Chairman Rush. And I also want 
to thank Chairman Waxman, and former Chairman Dingell and of 
course our Ranking Member Mr. Whitfield on this Subcommittee 
for their excellent work so far on this subject and this 
Congress. I am going to submit my formal statement for the 
record and I am going to read a little bit from the Republican 
Memo on this hearing because I think it is by itself a fairly 
good opening statement. This is from the Republican memo on 
this hearing. It says on July the 22nd, 2010, Chairman Waxman 
and Chairman Rush introduced legislation entitled The Toxic 
Chemical Safety Act. This legislation would dramatically 
rewrite Title I of the Toxic Substance Control Act or TSCA.
    This legislation is introduced following the circulation of 
discussion draft in April, followed by 10 listening sessions 
for various stakeholders to express their views on potential 
improvements to the technical and policy parts of the draft 
legislation. TSCA enacted in 1976 gives the EPA authority to 
regulate the manufacture, processing, distribution, and 
commerce use and disposal of chemical substances and mixtures. 
For the purposes of this memo discussion draft Title I which 
has the actual authorities related to generic chemical 
regulation is the focus. Title I of TSCA is the only federal 
environmental law that explicitly gives EPA broad power to 
regulate domestic manufacturing.
    In addition, Title I provides EPA authority to gather data 
on chemicals, review petitions for the use of new chemicals and 
take action against imminent threats to the environment and the 
public health. TSCA is a risk based statute that requires the 
EPA to regulate against an unreasonable risk and to do so in 
the ``least burdensome way. Interestingly section 6C of TSCA 
requires the EPA to use another environmental law besides TSCA 
if a risk of an intruding human health or the environment could 
be eliminated or reduced in a sufficient--to a sufficient 
extent by actions taken under another federal law.''
    Finally TSCA contains preemption provisions that do not 
allow states to establish testing and other requirements that 
conflict with existing federal laws. Mr. Chairman, TSCA has 
been referred to by the current EPA administrator as a model 
federal law. And yet the discussion draft that yourself and 
Chairman Waxman have introduced radically changes TSCA. It sets 
a safety standard that probably could not be met. It changes 
the burden of proof; I mean it is 170 degrees in its change in 
direction from the current law which is in my opinion working 
well.
    So I want to commend you, Chairman Rush, and the full 
Committee Chairman Mr. Waxman for the process. To your credit 
you have put your discussion draft out, you have listened to 
stakeholders, you have had meetings with myself, and Mr. 
Whitfield, and other Republicans, and you have indicated that 
you are not going to have a rush to judgment and no pun 
intended, Chairman Rush on this legislation. We have got an 
expert panel here today including the Administrator of the 
program at EPA. I suggest that we re-listen to them before we 
decided what to do.
    I think it is apparent given that today and tomorrow are 
the last two days we are going to be here before the middle of 
September, and when we get back in September we are not going 
to be in session hopefully more than two to three weeks before 
we break for the campaign for the election. It is very unlikely 
that we can--are going to do anything on TSCA unless we decide 
that you wanted to just do a straight, clean, reauthorization. 
Based on this discussion draft, that doesn't appear to be our 
intention of our friends on the Majority. So this is a very 
important hearing, because it probably sets the floor for 
discussion and act in this area in the next Congress. And with 
that, Mr. Chairman, I yield back. I do appreciate the hearing, 
and I do again appreciate the process of the--of listening, and 
discussing, and sharing that have been exhibited on this issue 
so far in this Congress. Thank you, Chairman Rush.
    [The prepared statement of Mr. Barton follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The Chair thanks the Ranking Member and now 
recognizes Mr. Green, gentleman from Texas for 2 minutes.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you Mr. Chairman for holding this hearing. 
I would like to welcome both our panels. I want to thank all 
the stakeholders for their participation in the process over 
the last few months. Your input is valuable to us and as we 
work towards reforming TSCA. I also want to thank the Committee 
for considering the input in consideration as the bill was 
crafted. I hope this dialogue will continue as the bill moves 
through the Committee process.
    In 1976 The Toxic Substance Control Act was written to 
ensure that human health and environment effects on--of 
chemical substance were identified and properly controlled 
prior to placing these materials in Commerce. However, since 
then recognition that the bill needs to be updated to give the 
EPA the necessary authority to oversee and regulate chemicals 
that are hazardous to human health and the environment has only 
grown to the point that EPA is no longer seen as an effective 
regulator of consumer products. This need to regulate has been 
recognized by industry participants as well as consumer, labor, 
and environmental advocates alike. So while it is broadly 
recognized that changes need to be made in TSCA, there remains 
to be some disagreement over the scope of these changes, and I 
look forward to hearing from our witnesses today on their 
thoughts on the bill before us.
    While I appreciate the Committee's work on this bill, I do 
have some concerns about changes made in the new chemicals 
program and whether the timelines included in the bill for the 
EPA to complete their work on reviewing existing chemicals are 
realistic from a time and personnel perspective. I believe it 
is important that TSCA reform protects consumers, workers, and 
the environment while encouraging innovation and ensuring a 
workable regulatory program. As we move forward I steep that 
balance in these objections with the end result that is 
beneficial for both the environment consumers and businesses, 
and I look forward to working with our Chairman and our Ranking 
Member. And again thank you, and I yield back my time.
    Mr. Rush. The Chair now recognizes Dr. Gingrey for 2 
minutes.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. Mr. Chairman, thank you. I have got a written 
statement and I would like to submit it for the record. I may 
paraphrase some of it, but the distinguished Chairman Emeritus 
remarks are basically the way I feel about this reauthorization 
of TSCA. It is necessary. I feel sure that it is necessary. It 
has been a long time since the law was basically passed back in 
1976. And certainly we don't want to expose the public to 
harmful chemicals; Not one of the 84,000 under the jurisdiction 
of TSCA. But when I read some of these testimonies, I haven't 
read every word of every testimony, of course you always bring 
up what the harmful effects are on the children.
    Now I am a physician and indeed an OB-GYN physician. I have 
delivered 5,200 children, babies, and I am concerned about 
them. Of course I am concerned about everybody, but I think 
there is a great risk here of getting to the point where we 
literally scare the bejesus out everybody. In fact I was 
reading one of the testimonies, I don't think I--well, I can 
find it. I was--go real quickly to page one and we are going to 
hear from Mr. Owens, but in the second paragraph the last 
sentence it says and maybe this is just a typo, the time has 
come to bring TSCA into the 21st century and give the American 
people the protection from harmful chemicals they expect. So 
they expect harm from the chemicals? That probably should have 
read the American people the protection they expect from 
harmful chemicals. So you know I have some real concerns about 
overshooting here. I think I went into--went to Georgia Tech as 
a co-op student back in 1960, and I said I am going to major in 
chemistry because I love that ad that DuPont had: Better things 
for better living through chemistry. And so you know, it is 
good to regulate and make--protect people and everything, but 
let us not throw the baby out with the bathwater here. And I 
really do look forward to your testimony. Mr. Chairman, I yield 
back.
    [The prepared statement of Mr. Gingrey follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The gentlewoman from Colorado, Ms. DeGette is 
recognized for 2 minutes.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman. I think we 
should put this into perspective. We have 80,000 chemicals 
present in Commerce today and many Americans assume that these 
potentially toxic substances are heavily regulated and are 
therefore safe. But somehow, only 200 of the 80,000 chemicals 
have been required to undergo EPA mandated testing. Only five 
are currently under EPA restrictions. And even more alarming is 
that American babies even before they are born are exposed to 
more than 350 industrial chemicals, pesticides, and pollutants, 
most of which are subject to little or no regulation. Now the 
reason why we have this situation is because TSCA is just 
frankly inadequate and outdated.
    When this law was first put into effect in 1976 it was a 
ground-breaking piece of legislation that took steps to limit 
the country's exposure to harmful chemicals and toxins. But 
despite its initial success, TSCA failed to anticipate the 
scientific and technological developments of the next 30 years 
that would result in unprecedented numbers of chemicals. This 
updated legislation has a lot of good benefits. It vastly 
improves our ability to monitor commercial chemicals, it has 
strong disclosure requirements, and equally importantly it 
doesn't stop at regulation of current chemicals, but also 
inspires innovation with incentives to encourage the 
development of new, safer chemical alternatives. And it is our 
hope that many of the companies that currently rely on 
potentially harmful and toxic chemicals will look at the 
feasibility of safer options.
    So Chairman, I am proud to be an original co-sponsor of 
this legislation. It was developed with input from everybody 
and I think the resulting Act will better equip our regulatory 
agencies to fight the dangers. I commend you, I commend the 
committee staff, and I hope that our friends on the other side 
of the aisle will work with us as we move forward on it.
    Mr. Rush. The gentleman from Louisiana, Mr. Scalise is 
recognized for 2 minutes.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman for having today's 
hearing on The Toxic Chemical Safety Act, a bill that would 
dramatically change chemical regulation in the United States, 
and severely impact every sector of our economy particularly 
places like my home State of Louisiana that are so dependent on 
the chemical industry. Mr. Chairman, Louisiana rates second in 
the nation in total chemical industry value output and we are 
the ninth largest employer of chemical industry workers in the 
country.
    In addition there are more than 100 major chemical plants 
located in my state not to mention the many petrachemical 
refiners, chemical processors, distributors, exporters, and 
retailers that all work in Louisiana and provide thousands of 
quality high paying jobs. Simply put the chemical and 
petrachemical industries are the very backbone of our state's 
economy and the future in economic well being would be 
threatened if H.R. 5820 were to become law in its present form. 
I have very serious concerns about the legislation and the 
consequences it would have for our chemical industry. First, 
the scope of the legislation is extremely broad. EPA would be 
given unprecedented new authority to regulate chemical 
substances, mixtures, and articles and the bill would require a 
minimum data set for every chemical and mixture distributed in 
Commerce. And every chemical and mixture will be subjected to 
scores of job killing new regulations. No one in the supply 
chain would go untouched.
    The scope of this legislation also brings its workability 
in to question. I believe the EPA's resources will be 
overwhelmed and the chemical industry will be overburdened with 
the tracking and reporting requirements under the bill. It 
piles up massive regulatory burdens on the chemical industry 
and it gives powers to the EPA that will not be able to 
accomplish, which will disrupt Commerce and put the industry 
and EPA into a never-ending loop of review. Another serious 
concern I have is the bill's treatment of confidential business 
information. The chemical makeup of commercial chemicals and 
mixture components will be compromised meaning that crucial 
trade secrets and intellectual property will be lost. Why would 
a chemical manufacturer or processor try to develop new 
chemicals or seek new innovative mixtures in America when their 
work will be made available to their competitors if they make 
it here rather than a foreign country?
    And finally, Mr. Chairman, this legislation removes the 
current TSCA requirement that EPA analyze a new regulations 
effects on employment. This is proof that the proponents of 
this legislation know how damaging this bill will be to jobs in 
the chemical industry, and it flies in the face of claims by 
this Administration, and the liberals running Congress that 
their focused on jobs. And really I guess the proponents of 
this legislation don't want the EPA to look at the impacts of 
jobs when the bill gives the EPA the authority to shut down 
businesses and plants. It doesn't take a Ph.D. in economics to 
understand the impact there. Those actions will destroy jobs. 
This legislation will cause serious harm to the chemical 
industry and put thousands of hard working Americans out of 
work. While I am for ensuring that safe chemicals are being 
manufactured and used in Commerce we must create--we must not 
create new federal powers that will defer innovation, destroy 
American competitives, and kill jobs. Thank you, I yield back.
    Mr. Rush. The Chair now recognizes the gentleman from 
Texas, Mr. Gonzales for 2 minutes. The gentlelady from Florida 
Ms. Castor is recognized for 2 minutes.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Good morning and thank you, Chairman Rush very 
much for this hearing and all of your leadership during this 
session of Congress on TSCA reform including H.R. 5820 The 
Toxic Chemical Safety Act which I am proud to be an original 
co-sponsor. You know toxic, or comprehensive TSCA reform has 
now been put off for a generation, an entire generation. But we 
have an opportunity now to confront the threats with toxic 
chemicals posed to the public health, and to our families, and 
to your communities. I mean it was 1976 when The Toxic 
Substances Control Act was passed and there were already more 
than 60,000 chemicals in production in the United States. And 
we knew very little about the health and environmental impacts. 
Unfortunately TSCA proved to be very weak and inadequate. EPA 
required testing on a mere 200 chemicals despite the years of 
solid science that has shown that many, many more are highly 
toxic. Even more concerning the EPA regulates just five of the 
more than 80,000 that are now in circulation. We can do so much 
better. This is the United States of America. We have the 
science; we have the experts. A particular concern are the 
consistent biocumulative toxic chemicals--these PVTs pose an 
especially worrisome threat to our communities because they 
build up in the food chain, and the human body, and they linger 
for years, and because they increase the risk of breast cancer, 
and brain cancer, autism, asthma, reproductive disorders, and 
birth defects. The good news is that we are now the threshold 
to make real progress. We have terrific experts here today. We 
have dedicated colleagues throughout the halls of Congress and 
professional staff, and all of you that are ready to help us 
modernize chemical regulation. After--so after 34 long years it 
is time to take action starting with the worst offenders 
including PVTs. It is time to alter the burden of proof, move 
away from the research and delay strategy that has done a lot 
of harm to consumers and families. There is so much at stake 
for the public health, and our families, and consumers across 
America, so I am hopeful that we are going to make progress. 
Thank you and I yield back.
    Mr. Rush. The chair now recognizes the gentleman from 
Pennsylvania, Mr. Murphy for 2 minutes.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy of Pennsylvania. Thank you, Mr. Chairman. The 
Toxic Substance Control Act of 1976 is in need of critical 
updates. Since it was written, thousands of more chemicals have 
been invented; many have substantially improved public health 
and prolonged life. Vehicles made lighter and safer, building 
materials stronger and safer, medical devices and material 
coatings that are more useful, reduce rejection by the body, 
improve medication effectiveness, and reduce infection of risk. 
Farms are more productive and for all these we are thankful for 
the scientific inventions.
    On the other hand there have also been new chemicals 
associated with harm and public health. Further substances 
previously thought safe were later deemed unsafe after years of 
research or after new technologies were developed to test 
substances. New technologies not available at the time the 
product was invented. In 1899, Charles Duell, the then 
Commissioner of the U.S. Patent Office declared ``everything 
that can be invented has been invented.'' Well we recognize now 
how out of step he was, but we are at risk of applying and 
codifying a similar standard today. If we were to apply a far 
reaching standard that says ``ensures for all intended uses 
with regard to public health that there is a reasonable 
certainty that no harm will result'' I fear this standard must 
assume that every test that can be invented has been invented, 
that every outcome that can be anticipated has been 
anticipated, that every long term cumulative effect of 
everything has been measured in every way thinkable and not yet 
thinkable. This legislation assumes that the EPA is capable of 
doing these things but assumes--excuse me the EPA is incapable 
of doing all these things, but it assumes all private industry 
is capable of meeting this standard. Rather it assumes a 
standard of ``We can't tell you exactly what it is, and we 
can't do it ourselves, but you're responsible for knowing what 
we meant now and the future with the tools you don't have.'' 
Now I will support standards which say we must work with 
industry, not abdicate the EPA's or the FDA's or anybody else's 
role in independently assessing product safety. But it is 
difficult to have a standard applied that no one can quite 
define but we say we want you to assume all risk. If we are 
apply and zero risk standard legislation we would pass no 
bills. I hope that this Committee will continue work on this 
very, very important issue to move forward on public health, 
but let us not immobilize our systems and standards, and let us 
help promote further inventions in the scientific community. 
Thank you.
    Mr. Rush. The gentleman from Illinois will pass, the Vice 
Chairman of the Subcommittee. Ms. Schakowsky is recognized for 
2 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. I want to take 
just a different perspective on Mr. Owen's statement that my 
good friend Mr. Gingrey pointed out in the testimony that the 
time has come to bring TSCA into the 21st Century and give 
American people the protection from harmful chemicals they 
expect. I want to use as case in point the issue of asbestos. 
Eight thousand Americans die each year from complications 
associated with exposure to asbestos. In 1989, the 
Environmental Protection Agency attempted to use TSCA to issue 
a rule to ban the use of asbestos citing the strong evidence of 
hundreds of studies that conclusively found that asbestos was 
extremely hazardous to workers and the public as a whole. And 
despite the overwhelming evidence the U.S. Court of Appeals 
reversed that decision saying that the EPA had not fulfilled 
the necessary burden of proof under TSCA. In Mr. Owen's 
testimony he cites the inability of EPA to phase out the use of 
asbestos in products despite the ``unanimous scientific opinion 
about the risk'' as an example of TSCA's ineffectiveness. Now I 
would actually like to see, there is a process that would allow 
asbestos to be phased out. I would like it actually to go even 
faster and to allow the EPA to have the authority to 
immediately ban the most highly toxic substances like asbestos 
that including long lasting chemicals known as persistent 
bioaccumulative toxic pollutants (PBT's) that build up in the 
food chain to levels that are harmful to human health and cause 
environmental harm. But certainly we want to empower the EPA to 
do the--to be able to remove from the environment those things 
that we know are killing people. And right now that is not even 
the possibility. So I am glad that we are doing this. I highly 
support, heartily support the bill. I am a co-sponsor, and I 
yield back.
    Mr. Rush. The Chair recognizes Mr. Space for 2 minutes.

OPENING STATEMENT OF HON. ZACHARY T. SPACE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Space. Thank you, Mr. Chairman. I would like to thank 
you and Ranking Member Whitfield for holding today's hearing on 
TSCA reform legislation. I am encouraged that we have made some 
significant process on this priority and I am especially 
pleased that you and your staff engage in lengthy stakeholder 
process following the creation of a draft bill and prior to 
introducing the legislation that is before us today.
    All of us want to see TSCA modernized because we agree that 
our current regulatory framework is broken. Indeed even the 
industry itself has made that explicit acknowledgement. All of 
us strive for safe communities and livable environments. And 
during this time of economic down turn part of creating a 
livable environment is ensuring that we are maintaining jobs 
and the American industries that support them. I think it is 
important to understand that there is--this is not a black and 
white situation here. It is a very grey area and finding that 
balance is critical to our success as a legislature in dealing 
with an issue which is admittedly one of grave concern to a lot 
of people. I look forward to working with you, Mr. Chairman, 
and members on both sides of the aisle as we piece together 
legislation that protects both the health of our families, and 
the jobs that provide for them. And I happen to be one who 
thinks that we can do so in an effective fashion with regards 
to both concerns. And with that, Mr. Chairman I yield back.
    Mr. Rush. The Chair now recognizes the gentlelady from 
Ohio, Ms. Sutton for 2 minutes.
    Ms. Sutton. Thank you, Mr. Chairman. And thank you very 
much for holding this very important hearing. I am going to 
submit my statement for the record, but this is a critical 
issue and I look forward to hearing what the witnesses have to 
say about how we might be able to strengthen and perfect this 
bill going forward. Thank you, I yield back.
    [The prepared statement of Ms. Sutton was unavailable at 
the time of printing.]
    Mr. Rush. This hearing now will entertain a unanimous 
consent request that Mr. Tim Murphy from Connecticut--
Christopher, I am sorry, Mr. Christopher Murphy from 
Connecticut be allowed to sit with the panel for the purposes 
of questioning the witnesses, and to make some introductory 
remarks to one of his former constituents and colleagues Dr. 
Mitchell. Hearing no objections, so ordered. Mr. Murphy, you 
will be allowed to participate in the questioning of the 
witnesses. Now it is my privilege and honor to introduce our 
five panelists who have sat by very patiently while the members 
address their opening statements. And I want to introduce the 
panel now. To my left we have Mr. Steve Owens who is the 
Assistant Administrator of the Office of Chemical and--Chemical 
Safety and Pollution Prevention for the EPA. Next to Mr. Owens 
is Dr. Richard Denison. He is a Senior Scientist for the 
Environmental Defense Fund. And next to Dr. Denison is our 
former colleague and outstanding member of Congress and he now 
is the President and Chief Executive Officer of the American 
Chemistry Council, Mr. Cal Dooley. And next to Mr. Dooley is 
Mr. Ken Cook who is the President of the Environmental Working 
Group. And seated next to Mr. Cook is Mr. Howard Williams the 
Vice President of Construction Specialties, Incorporated of 
Muncy, Pennsylvania. And seated next to Mr. Williams is Dr. 
Mark Mitchell, the president of the Connecticut Coalition for 
Environmental Justice. And seated next to Dr. Mitchell is Ms. 
Beth Bosley. She is the Managing Director of Boron Specialties, 
LAC--LLC of Valencia, Pennsylvania. And she is testifying on 
behalf of The Society of Chemical Manufacturers and their 
Affiliates. And so again welcome to each and every one of you. 
And it is the practice of this Subcommittee to swear in the 
witnesses so I will ask if you would please stand and raise 
your right hand.
    [Witnesses sworn.]
    Mr. Rush. Please be seated. Let the record reflect that the 
witnesses have all answered in the affirmative. Now the Chair 
recognizes the witness Mr. Owens for 5 minutes.

 TESTIMONY OF STEVE OWENS, ASSISTANT ADMINISTRATOR, OFFICE OF 
    CHEMICAL SAFETY AND POLLUTION PREVENTION, ENVIRONMENTAL 
     PROTECTION AGENCY; RICHARD DENISON, SENIOR SCIENTIST, 
  ENVIRONMENTAL DEFENSE FUND; CAL DOOLEY, PRESIDENT AND CHIEF 
   EXECUTIVE OFFICER, AMERICAN CHEMISTRY COUNCIL; KEN COOK, 
 PRESIDENT, ENVIRONMENTAL WORKING GROUP; HOWARD WILLIAMS, VICE 
    PRESIDENT, CONSTRUCTION SPECIALTIES, INCORPORATED; MARK 
 MITCHELL, PRESIDENT, CONNECTICUT COALITION FOR ENVIRONMENTAL 
JUSTICE; AND BETH BOSLEY, MANAGING DIRECTOR, BORON SPECIALTIES, 
     LLC, SOCIETY OF CHEMICAL MANUFACTURERS AND AFFILIATES

                    TESTIMONY OF STEVE OWENS

    Mr. Owens. Good morning. Chairman Rush, Vice Chair 
Schakowsky, Ranking Member Whitfield, Chairman Emeritus Dingell 
and other members of this Subcommittee and the full Committee, 
thank you for the opportunity to be with you today to discuss 
modernizing The Toxic Substances Control Act or TSCA as it is 
commonly known. The outside--I am sorry, Mr. Chairman, can you 
hear me now? Is that better? Sitting here at the little boys 
table, so I got to sprite you up a little bit more. So but at 
the outset, Mr. Chairman, I want to thank you and Chairman 
Emeritus Dingell, and other members of this Subcommittee for 
the tremendous leadership you have shown on this very important 
issue. As EPA Administrator Lisa Jackson has said on many 
occasions the public expects the government to provide 
assurances the chemicals have been assessed with the best 
available science and that unacceptable risk has been 
eliminated. Restoring confidence in our chemical management 
system is a priority for EPA and this Administration. TSCA 
regulates chemicals manufactured and used in this country.
    And while TSCA was an important step when it was first 
passed in 1976 it is the only major environmental statute that 
has not been reauthorized since its passage. TSCA is clearly 
showing its age and its limitations. Over the last 34 years 
TSCA has proven inadequate for providing the protection against 
chemical risks that the public rightfully expects. Unlike the 
laws applicable to drugs and pesticides, TSCA does not have a 
mandatory program by which EPA must review the safety of 
chemicals. In addition, TSCA places legal and procedural 
requirements on EPA's ability to request the generation and 
submission of health and environmental data on chemicals.
    When TSCA was enacted in 1976, it grandfathered in without 
any evaluation whatsoever the more than 60,000 chemicals that 
existed at that time. More than 24,000 additional chemicals 
have been produced since then with the result that EPA's TSCA 
inventory now lists more than 84,000 chemicals. Very few of 
which have actually been studied by EPA for their risks to 
families and children. Indeed TSCA does not provide EPA 
adequate authority to reevaluate existing chemicals as new 
concerns arise or as science has updated. And it does not give 
EPA full authority to require chemicals to produce toxicity 
data. As a result, in the 34 years since TSCA was passed, EPA 
has been able to require testing on only around 200 of the more 
than 84,000 chemicals now listed on the TSCA inventory as 
several members of the Subcommittee have noted. It has also 
been difficult for EPA to take action to limit or ban chemicals 
found to cause unreasonable risk to human health or the 
environment. Even if EPA has substantial data and wants to 
protect the public against known risks, the law creates 
obstacles to quick and effective regulatory action. For example 
as Vice Chair Schakowsky and other members of this Committee, 
in 1989 after years of study and nearly unanimous scientific 
opinion EPA issued a rule phasing out most uses of asbestos in 
products, and yet a Federal Court overturned most of this 
action because the rule had failed to comply with the 
requirements of TSCA. In fact, since 1976 only five chemicals 
have been successfully regulated under TSCA's authority to ban 
chemicals.
    The problems with TSCA are so significant that the 
Governmental Accountability Office has put the law on its high 
risk list of items needing attention. Today advances in 
toxicology and analytical chemistry are revealing new pathways 
of exposure. There are subtle and troubling effects of many 
chemicals on hormone systems, human reproduction, intellectual 
development, and cognition particularly in young children. It 
is clear that TSCA must be updated and strengthened if EPA is 
to properly do its job of protecting public health and the 
environment.
    Last September Administrator Jackson announced a set of 
principles on behalf of the Obama Administration to help fix 
TSCA. First, chemicals should be reviewed against safety 
standards that are based on sound science and reflect risk 
based criteria protective of human health and the environment. 
Second, responsibility for providing adequate health and safety 
information should rest on industry and EPA should have the 
necessary tools to quickly and efficiently require testing or 
attain other information from manufacturers relevant to 
determining the safety of chemicals without the delays and 
obstacles currently in place, and without excessive claims of 
confidentiality. Third, EPA should have clear authority to take 
risk management actions when chemicals do not meet the safety 
standard with flexibility to take into account a range of 
considerations. Fourth, EPA should have clear authority to set 
priorities for conducting safety review. Fifth, we must 
encourage innovation in green chemistry, and support strategies 
that will lead to safer and more sustainable chemicals and 
processes. And finally, implementation of the law as Chairman 
Emeritus Dingell pointed out should be adequately and 
consistently funded in order to meet the goal of assuring the 
safety of chemicals and to maintain public confidence that EPA 
is meeting that goal.
    Manufacturers of chemicals should support the costs of 
Agency implementation including the review of information 
provided by manufacturers. Mr. Chairman, a time has come to 
bring TSCA into the 21st century and the legislation you have 
introduced is a big step toward doing just that. Administrator 
Jackson and I look forward to working with you, other members 
of this Subcommittee, and members of Congress on this very 
important issue. And I will be happy to answer any questions 
you might have.
    [The prepared statement of Mr. Owens follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The Chair recognizes Dr. Denison for 5 minutes.

                  TESTIMONY OF RICHARD DENISON

    Mr. Denison. Thank you very much. Over the last decade a 
wide array of concerns has called into question the safety of 
the thousands of chemicals that we encounter in our everyday 
lives. Let me just mention a few of these, many more of which 
are in my written statement. Lead began showing up in a host of 
children's products finally leading Congress to impose a ban 
only to have another toxic heavy metal cadmium immediately take 
its place. PBT chemicals that several members of the 
Subcommittee have already mentioned this morning that we were 
told we would never be exposed to are now routinely found in 
the dust in our homes, in our environment, and even in the 
bodies of people living in the most remote parts of the globe. 
EPA cannot tell us with any accuracy how many chemicals are 
actually in Commerce today. And it is forced to perform Google 
searches to find out how chemicals like the hormone-disrupting 
bishpenol A are actually used because it lacks adequate 
authority to require reporting of chemical production and use. 
Eighty-five percent of new chemical notices received by EPA 
have no health data whatsoever because unlike every other 
developed country in the world, the U.S. lacks a requirement 
that companies submit a minimum data set when they notify EPA 
of the new chemical. EPA does require testing occasionally but 
only in a few percent of cases. These problems, Mr. Chairman 
can be directly attributed to the failures of The Toxic 
Substances Control Act. Happily H.R. 5820 would largely or 
completely ameliorate these problems. It provides a 
comprehensive systematic solution to a set of problems that we 
have addressed if at all through a reactive piecemeal approach. 
H.R. 5820 will help to protect our health and our environment 
while also encouraging innovation, insuring the use of the best 
and latest science, and meeting the needs of the market and 
consumers for better information. Let me touch briefly on these 
three.
    First, it will encourage innovation and protect American 
jobs. It will allow safer, new chemicals, or those serving 
critical uses to enter the market without a safety 
determination and provide ready market access to innovative 
greener chemicals. It will level the playing field between new 
and existing chemicals for the first time requiring existing 
chemicals to meet a safety standard and by raising overall U.S. 
standards it will help U.S. companies compete in a global 
economy for customers are demanding safer chemicals and 
products.
    Second, H.R. 5820 will be informed by the latest science. 
It will spur more effective and efficient testing methods that 
also reduce cost and the use of animals. It will adopt the same 
tried and true risk based safety standard that Congress enacted 
with overwhelming bi-partisan support 14 years ago in the Food 
Quality Protection Act. And it takes the common sense approach 
of assessing the aggregate of exposure to different uses of a 
chemical and to protect the most vulnerable among us. It 
incorporates the recommendations of the National Academy of 
Sciences and calls on EPA to frequently update its methods to 
incorporate the newest and best science. And it calls for 
expedited reductions in the exposure to PBT chemicals a 
particularly dangerous class of chemicals that have been 
targeted by authorities across the globe.
    Finally H.R. 5820 will spur the development and access to 
better information about chemicals vital not only to EPA safety 
decisions, but also to empower to the market to move toward 
safer chemicals well in advance of government regulation. It 
will also directly respond to the growing demand for such 
information by many American businesses and from consumers. As 
to workability given the large number of chemicals involved, 
the legislation reasonably phases in requirements over a number 
of years. It gives EPA the authority to tailor requirements 
rather than being one size fits all. It allows EPA to 
categorically exempt intrinsically safe chemicals, and it 
allows companies to protect legitimate trade secrets while 
still allowing EPA to share that information with state 
governments where needed. Mr. Chairman, I strongly urge the 
Subcommittee to advance this critically important legislation 
in this Congress. It represents a once in a generation 
opportunity to protect American people and our environment from 
dangerous chemicals. Thank you.
    [The prepared statement of Mr. Denison follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The chair now recognizes our former member of the 
Congress--I was elected with him in '93. Mr. Dooley is 
recognized for 5 minutes for the purposes of opening statement. 
I want to welcome you back to the--this House of 
Representatives.

                    TESTIMONY OF CAL DOOLEY

    Mr. Dooley. Thank you, Mr. Chairman, I am delighted to be 
back, and I want to thank you and Congressman Whitman, as well 
as members of the Subcommittee for inviting me to testify 
today. Chemical and chemical regulations have a broad impact on 
the American economy. A sustainable American chemistry industry 
is critical to American security and economic health, and that 
is why the American Chemistry Council last year introduced 10 
principles around which we believe TSCA modernization can and 
should be designed. But briefly it is our view that any 
approach toward updating chemical regulation should insure 
worker, and consumer, and public safety as its highest 
priority, preserve the ability of the United States to serve as 
the innovation industry of the world, to protect the hundreds 
of thousands of American jobs fueled directly and indirectly by 
the business of chemistry. Recently I was delighted to hear 
Speaker Pelosi announce for the balance of this legislative 
session Democrats would focus on a Make It in America theme. 
While not always obvious that chemistry, industry, and the 
industries, and businesses that rely on it at the core of our 
manufacturing sector, the chemical manufacturing sector alone 
employs more than 800,000 American workers. 96 percent of all 
manufactured goods are touched in some way by chemicals. We 
firmly believe that reforming TSCA to enhance the safety 
assessment of chemicals while maintaining the ability of the 
U.S. chemical industry to be the international leader in 
innovation and manufacturing are not mutually exclusive. 
However, we must strike the right balance and our assessment of 
H.R. 5820 as currently drafted promotes unworkable approaches 
to chemical management. It creates additional burdens that do 
not contribute to and in fact detract from making advancements 
in safety while coming up short with respect to promoting 
innovation and protecting American jobs. In my written 
testimony I acknowledge that there have been significant 
improvements over the discussion draft and--but today with my 
limited time I want to focus on some of the provisions that 
continue to be a great concern.
    First, let me approach--address the safety standard. I am 
confident that everybody agrees that when someone gets behind 
the wheel of a car, buys a piece of furniture, or puts on 
clothing, the chemicals in those products should be safe for 
their intended use. However the safety standard as established 
in this bill sets an impossibly high hurdle for all chemicals 
in commerce that would produce technical, bureaucratic, and 
commercial barriers that would stifle the manufacturing sector. 
This--for example the bill requires that aggregate exposure to 
a chemical or a mixture meets the reasonable certainty of no 
harm. This means that when a chemical or mixture is listed for 
a safety determination, the manufacturer carries the burden of 
showing with reasonable certainty not just that the chemicals 
used, or the chemical poses no harm, but that all other 
aggregate exposures from all other uses of that chemical pose 
no harm. Even more troubling are the provisions in the bill 
that would identify chemicals that would be subject to a safety 
determination. The bill identifies 19 specific chemicals and 
requires within 12 months that the Administrator of EPA develop 
and maintain a list of 300 chemicals that would be subject to a 
safety determination. I don't have a clue, you know, what the 
rationale was to identify 300 chemicals, but I do know that 
there are significant real world consequences resulting from a 
chemical being listed. Again the legislation requires that the 
manufacturer bear the burden of proof. As an industry, we are 
prepared to accept a greater responsibility to ensuring that we 
provide the date that meets an appropriate safety standard, but 
what is troubling is that there is no requirement that EPA 
evaluates the information we submit and render a safety 
determination during a specific time frame. Furthermore, under 
the bill if the EPA does not issue a safety determination for 
whatever reason, it would prohibit any new use of the chemical. 
Now you don't have to be a rocket scientist or a chemical 
engineer to understand the impact that this policy will have on 
innovation and product development in the United States. 
Regardless of the environmental, the economic, or the societal 
benefits, and attributes of a product if this contains one of 
the 300 chemicals listed it would be shut out of the market for 
reasons that have nothing to do with the risk of that product 
and the exposure that it would present to consumers or the 
environment. And it shouldn't be lost on any of you that this 
legislation would require every chemical and mixture that is in 
Congress to eventually be subject to this safety determination. 
You know when you think about the impacts that this has, I 
mean, they are so dramatic because you can have--this is a 
piece of polysilicon. This is a very common chemical that has 
an additive that goes into solar panels that you see here, it 
is in the, you know, the blackberrys, and the cell phones we 
use. It is in the computers that we use every day. If perhaps 
one of these chemicals that are in all these products was in 
fact on that safety determination, that list of 300, and the 
Administrator of EPA didn't take action in a timely manner and 
issue a determination, it would ban any new use of this 
polysilicon on any new application regardless of the actual 
exposure and the increased risk that would emanate or result 
from that product. Clearly this is something that runs contrary 
to the interest of providing and insuring the United States 
maintains at the forefront of innovation. We also have serious 
concerns about the new chemicals provisions, we have serious 
concerns as well about the import provisions which we 
acknowledge that there was a good faith effort to try to 
maintain a level playing field and I hope that we have the 
opportunity to address some of those during our question and 
answer period.
    [The prepared statement of Cal Dooley follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The Chair now recognizes Mr. Cook for 5 minutes.

                     TESTIMONY OF KEN COOK

    Mr. Cook. Mr. Chairman, thanks for the opportunity to 
testify today, and Mr. Whitfield, and other members of the 
Committee. When it comes--oh I am sorry--when it comes to 
protecting the public from toxic----
    Mr. Rush. Pull the mic closer to you please.
    Mr. Cook. When it comes to protecting--you still can't 
hear?
    Mr. Rush. No, turn it on, yes.
    Mr. Cook. It wasn't--it says it is on. All right, sorry. I 
guess it is--technological breakdown--should I try the other 
mic? I am about halfway through my testimony already.
    Mr. Dooley. So far my plan is working.
    Mr. Cook. Cal says his plan is working. When it comes to 
protecting the public health from toxic industrial chemicals 
Mr. Chairman, The Toxic Substances Control Act has been so 
ineffective for so long a lot of people forgot it was on the 
books or didn't even know it was. It was the one environmental 
law according to their own internal documents that the industry 
was actually satisfied with, liked, because unlike the Clean 
Air Act or the Clean Water Act, or other statutes, TSCA really 
didn't interfere with their business very much at all. And when 
the EPA did try and use The Toxic Substances Control Act under 
the first President Bush to ban a notorious stone cold killer, 
asbestos, the law itself defeated the agency.
    Now this law is defeating the chemical industry. Because 
TSCA leaves the government so stunningly unable and powerless 
to deal with this soup of toxic industrial chemicals that are 
in the environment, that are in all of us, the American public 
has lost confidence, has lost trust that the products they are 
using, the chemicals they are exposed to are safe. Now the 
chemical industry wants a strong law behind it instead of a 
weak law underfoot. Within the environmental community TSCA was 
the crazy aunt in the attic that no one talked about and wanted 
to forget with one exception, the Environmental Defense Fund 
which to its great credit maintained a focus on this statute 
when most of the rest of us were not paying attention.
    Mr. Chairman, you, Mr. Waxman, your co-sponsors and the 
extraordinary staff that has put so much work into this, you 
have changed all of that. With the introduction of this bill 
which when it becomes law will be the strongest public health 
environmental statute in the world. There is not a person in 
this room, not a one, not a person in this country, not a one 
who does not now have in their body, in their blood dozens, if 
not hundreds of TSCA regulated chemicals that are known to 
cause cancer in laboratory animals or in people--known. How 
many carcinogens? We don't know. Nearly a century into the 
chemical revolution no one, not government, not my friends in 
industry has bothered to look. As the President's cancer panel 
reported earlier this year we are largely left to speculate if 
those chemicals alone or in combination are contributing to 
cancer and how much they may be contributing. What that 
landmark panel's report did say is that we have grossly 
underestimated the role these chemicals have played in the 
surge of cancer.
    Here is what is not speculation, Mr. Chairman. Half of all 
the men in this country, a third or all women will one day hear 
a doctor say to them you have cancer. I have nothing to tell 
you, Mr. Chairman about those moments. It has gripped my 
family, my loved ones, as it has the families of everyone in 
this room. What could be worse? Let me tell you. Every baby 
born in this country today for decades past has come into the 
world pre-polluted with a load of toxic carcinogenic chemicals, 
pre-polluted with a load of chemicals that threaten the 
intricate wiring of their delicate rapidly developing brains; 
pre-polluted with a mix of chemicals that upset their 
exquisitely sensitive hormone systems that will regulate their 
bodies for the rest of their lives and many more chemicals 
circulate through that 300 quarts of blood while they are in 
the womb that can affect virtually every organ system in their 
body. Pollution from the industrial chemicals that you see to 
regulate with this landmark legislation begins in the womb. We 
know this because my colleagues have done the studies, the 
pioneering studies that documented it.
    Mr. Chairman, I have to commend you for this legislation. 
It is far reaching. I believe it is fair. I want to talk very 
briefly about three points. We believe strongly that the 
standard reasonable certainty of no harm borrowed very usefully 
from the pesticide law that has helped our companies lead the 
world in that marketplace is vital. Two, we believe very 
strongly that biomonitoring should be at the center of this 
bill more so than it is now. We would encourage you to look 
back at the kid safe chemicals act because our more than 
100,000 supporters who signed a petition to this committee, 
almost a million supporters in total, they want to know what 
chemicals are in the blood of babies in the womb. And they want 
to know, if those chemicals are in there, are they safe? We 
expect the government to be able to do that.
    One final point, Mr. Chairman, I think you have struck the 
right balance on confidential business information, the right 
balance in addition on most of the other provisions in the bill 
that would encourage the government to divulge more information 
obtained from the industry. They do bear the burden to 
demonstrate that their chemicals are safe in commerce. Thank 
you.
    [The prepared statement of Mr. Cook follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. We want to suspend just for a moment while the 
technicians attempt to work with the sound system. We will 
suspend just for a moment while they are----
    [Recess.]
    Mr. Rush. Let us continue now. The Chair now recognizes Mr. 
Williams for 5 minutes for the purposes of an opening 
statement.

                  STATEMENT OF HOWARD WILLIAMS

    Mr. Williams. Thank you, Chairman Rush, Mr. Waxman, Mr. 
Whitfield, Subcommittee, and staff for inviting me to give a 
business perspective on TSC 5820. I am Howard Williams, I am 
Vice President, General Manager of a company that makes 
building products and we are--my division is in Central 
Pennsylvania. We have about 360 employees at our facilities and 
when we add corporate marketing and R and D into that mix we 
have added about another 100 people. So Central Pennsylvania is 
where we are located. We are part of a small multi-national. We 
have--we are privately held; we are U.S. owned. We operate from 
25 sites in 19 countries, and we make our contextual building 
products in the non-residential end of things. Domestic 
construction amounts for about 14 percent of our gross domestic 
product here and this bill has an opportunity to really help 
and to inform, and to grow that level of construction not just 
here in the U.S., but also I could not find the figures for 
what we export relative to architectural design and relative to 
building products as a nation as a whole. But I am certain of 
great multipliers upon the 14 million.
    In the areas that we are particularly interested in and 
think that actually could help to create jobs, and we will talk 
a bit more about that later, are the minimum data sets, the 
prioritization, access to disclosure, and restricting the 
PBT's. Chemicals and the elimination of PBT's are at the 
forefront of all of our building standards. I have referenced 
in my written testimony the federal standards that require 
environmentally preferable purchasing require that buildings 
are built in accordance with lead U.S. green building 
standards. They are very clear. They are wonderfully explicit. 
Get the PBT's out of here. We interact--people interact with 
the building products, we interact with the furnishings within 
the spaces that we live and enjoy and we also have an 
opportunity periodically to interact with the PBT's that are 
off-gassing from those materials from within products.
    Globally we add 78 million people to planet. Ninety percent 
of what we do as people is inside of a building, so it is 
within buildings and building materials that there is a great 
opportunity to make a very real difference in chemical exposure 
and product exposure. As a company we now seek to know the 
chemistry of our building materials down to 100 parts per 
million. We want to know what 99.99 percent of our building 
products contain because that is the first step for us to be 
able to eliminate PBT's, chemicals of concern, carcinogens. But 
identifying that chemical composition is a costly and time 
consuming process. We have to almost literally reach through 
layer upon layer within the supply chain and pull that 
information forward because disclosure is not a subject that 
endears a researcher to many other suppliers.
    But it is essential, however that work needlessly adds cost 
and delay to the process. There is a great business case for 
what we are doing. We as a company are growing. We as a company 
are adding jobs and again we are located in Central 
Pennsylvania. The construction sectors have been hit hard, but 
we are growing and adding jobs because of what we are doing 
because of the market reception. So there is a great business 
case for doing what we are doing. There is also a case though 
to be made for this is a profitable and a responsible thing to 
do. The result of that though is access to this change and to 
greater improvements is something that the general population 
doesn't always have access to. More disclosure, better 
understanding, or I would even say access to disclosure. It is 
really going to help manufacturers of our products that are 
wanted by other countries that we are going to be able to 
export and grown in our businesses. Access to that disclosure 
is critical. And again environmentally preferable purchases are 
required on the basic premises of an act though is that you use 
recycled material. Today, tomorrow, and for generations we will 
be recycling materials that contain carcinogen materials, 
components, that contain PBT's, so in all of this in this great 
dynamic of growth of population, in the growth of proliferation 
of green products and Acts standards, we are going to be 
multiplying some of these PBT's over, and over, and over again. 
And the result of that is going to be exposing more people. We 
strongly support data sets, prioritization of chemicals, 
disclosure, restricting the PBT's, and I fully recognize that 
this disclosure end of things is a very, very difficult 
subject. We are in business. We don't like competition to know 
what we are doing. We don't want them to know what we are 
doing, so disclosure's going to be the toughest point that you 
as a group have to deal with and build into this legislation. 
But it is a time for innovation, it is a great time for people 
environmentalism. The market wants these products. We are tied 
to it. It is just chemistry and what is going on in this world 
as we heard, 90 percent of everything has chemistry involved in 
it. So what a marvelous, marvelous time where environmentalism, 
consumerism, and these changes can come together and make a 
strong America, make job growth, redefine green jobs, and the 
result of that is to take care of some of the unintended 
consequences that we face with on a day to day basis. So thank 
you.
    [The prepared statement of Howard Williams follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rush. The Chair now recognizes Dr. Mitchell for 5 
minutes.

                   TESTIMONY OF MARK MITCHELL

    Dr. Mitchell. Thank you, Chairman Rush, and members of the 
Committee. My name is Dr. Mark Mitchell, I am a public health 
physician and I became concerned about--when looking at the 
rates of disease, I became concerned about the increase in the 
number of diseases that are related to the environment as 
opposed to other diseases which were declining. We saw an 
increase in those related that are related to the environment. 
So that is why I have formed the Connecticut Coalition for 
Environmental Justice, and I am the President of that, and also 
I am a member of the National Work Group for Environmental 
Justice Policy. We work with environmental justice communities 
which are communities that are low income, communities of color 
that are just proportionally burdened with environmental 
hazards and also have increased rates of disease from these 
environmental hazards.
    I would like to talk a little bit about the exposure to 
these hazards throughout the chemical life cycle from 
extraction of chemicals, to production, to distribution, use, 
disposal, and legacy exposure to these chemicals. And I will 
talk a little bit more about what that is. H.R. 5820 goes a 
long way toward addressing the environmental justice concerns 
throughout the life cycle, the chemical life cycle.
    The first part of the chemical life cycle is the 
extraction. And these include mining communities, but also 
places like along the Gulf Coast where people are being exposed 
today to oil spills that are washing up on their shores, and 
being exposed to chemicals from the oil as well as the 
dispersants that are used to disperse that oil. There are also 
a number of production communities such as Mossville, Louisiana 
and Louisville, Kentucky that have many chemical plants as well 
as other industrial facilities that are exposing residents to 
chemicals on a daily basis. And in these communities they have 
exceptionally high pollution rates. Rates that I believe would 
not be allowed in more affluent communities other than 
Mossville and West Louisville. And we are seeing very sick 
people in these communities. For example, we have a 30 year old 
that has a heart attack in the community. We are seeing 
clusters of Lupus, large numbers of hysterectomies, depression 
even, and premature death. These are communities that I would 
consider to be hotspots. And hotspots is a provision that is a 
new provision in this bill that would require that these 
communities reduce their pollution.
    The next phase of use of chemicals of the life cycle of 
chemicals is the use phase. Low income communities are even 
more exposed than other communities to hazards in everyday 
products. For example in about a year ago in Connecticut we 
started testing toys for lead. And what we found is that toys 
from discount stores such as ``dollar'' stores were more likely 
to contain lead than other toys. And these are the things that 
are exposing low income people to these toxics in the toys. We 
are also concerned about legacy chemicals and legacy chemicals 
are chemicals that have out used--have gone past their useful 
life but are still--people are still being exposed to these 
kinds of chemicals. For example, PCB's TSCA banned PCB's in the 
late 1970's. However, people are still being exposed to PCB's 
in the Bedford, Massachusetts for example they have two schools 
that are built on an old dumps that are still contaminated with 
PCB's. I am working with some of the housing developments that 
may also be built on this same dump. It is not clear right now, 
but the residents complained that when their children go out 
and play in the dirt that they get rashes, and rashes are one 
of the--are a potential issue that can be found with PCB's.
    Also, H.B. 5820 requires a health based standard and 
includes aggregate exposure from all sources. And it consider--
but it can consider the life cycle of chemical exposure and 
cumulative exposure. This is important to environmental justice 
communities since risk assessment has served environmental 
justice communities poorly. So in summary, we believe that this 
legislation goes far in addressing a number of environmental 
justice issues. We would like to see the bill passed out 
Committee this year, and I would like to thank you, Mr. 
Chairman for inviting me to this hearing. And I am certainly 
willing to answer questions later.
    [The prepared statement of Dr. Mitchell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The Chair now recognizes Ms. Bosley for 5 
minutes.

                    TESTIMONY OF BETH BOSLEY

    Ms. Bosley. Thank you, Chairman Rush, Ranking Member 
Whitfield, and members of the Subcommittee.
    Mr. Rush. Would you pull it closer to you?
    Ms. Bosley. Certainly. I am pleased to testify before you 
today on behalf of the Society of Chemical Manufacturers and 
Associates. SOCMA has about 300 members and we make a $60 
billion impact on the U.S. Economy. We also contribute to the 
chemical industry's status as one of the nation's leading 
exporters. We are very proud to say that we have an excellent 
track record with respect to health and safety of our 
colleagues, our workers, and our communities. We have testified 
before this Subcommittee before and we have also participated 
in the discussions that you have had recently on the discussion 
draft. We commend you for those discussions and believe they 
improved the draft bill.
    On balance, however, we are disappointed that the bill 
before us today still creates a burden which far--is far out of 
proportion with the benefit. The burden is not just a matter of 
profitability. It will deal a heavy blow to a strategic 
American industry that is already fighting recession and 
foreign competition. Among its goals for this legislation 
Congress seeks to and I am quoting here from the bill ``assist 
in renewing the manufacturing section of the United States and 
ensure that the products of the United States remain 
competitive in the global market.''
    Mr. Chairman, we believe that to the contrary this bill 
would face--this bill would in fact pose a great competitive 
disadvantage to the industry and would cause a reduction in 
manufacturing employment and a shift in our factories to 
foreign shores would accelerate. The chemical industry already 
fights hard to compete with countries that have cheaper 
resources, lower wage standards, and more lax regulation. We 
don't have to look far to find examples of public health 
concerns about tainted food or lead in children's toys as we 
have already heard about. That is the risk of encouraging 
manufacturing to migrate from our shores and far away from the 
protections of robust American regulation. Congress recognizes 
the importance of innovation and U.S. competitiveness as well 
as in achieving the aims of the bill through continual 
evolution towards safer and less toxic chemical substances.
    The U.S. chemical industry leads the world in research on 
approved manufacturing process and safety advancements to 
minimize the impacts of chemicals on human health and the 
environment. It is important, more important than ever that we 
maintain our lead on innovation. Chemistry as an enabling 
technology allows other industries such as aerospace, 
electronics, and advanced materials to be cleaner, greener, and 
more competitive, and it is not enough to do the product 
innovation in the United States. We need to do the 
manufacturing also. Here I am quoting Matt Miller of the Center 
of American Progress. Miller quotes former Intel CEO Andy Grove 
who says manufacturing is the only way to gain the hands-on 
experience with products that leads to all subsequent 
innovations. Surrender the manufacturing and you lose this 
virtuous cycle.
    Speaking for the members of SOCMA we are concerned that the 
burdens created in H.R. 5820 will indeed drive innovation and 
manufacturing from our shores. The following points highlight 
our major concerns and recommendations. For many industrial 
chemicals the safety standard in this bill creates a new burden 
without a benefit. The standards we use to regulate drugs which 
are intended to be bioactive, and food additives, which are 
intended to be consumed, should not be the model for how we 
regulate industrial chemicals. These chemicals often serve only 
as contained intermediates during the production of other 
products. The bill as written would impose unnecessary burdens 
and cost even on low risk, low volume chemicals. New chemicals 
and new uses would be subject to a yearlong review which would 
discourage the introduction of new chemicals and new 
applications of existing chemicals into the marketplace. The 
current new chemicals program which involves a 90 day review 
has generally received broad support.
    Through this program EPA has successfully reviewed 45,000 
new chemicals protecting and informing the public without 
impeding the innovation that is crucial to American 
competitiveness. EPA's use of models in the evaluation of new 
and existing chemicals should be encouraged since they have 
proven to be an accurate and efficient alternative to animal 
testing. An important--an improvement to the new--current new 
chemicals program would include modifying the approach to CBI 
such that the use of PMN data isn't permitted within EPA to 
review other new chemicals and as well as existing chemicals.
    Based on yesterday's revision that we received of the bill, 
it appears that Congress intends to eliminate mixtures from 
review under section five. We support this revised approach 
since the inclusion of mixtures would present an extremely high 
burden for the industry and for EPA for mixtures that may not 
even have a risk. But we need to study the implications of the 
narrow redaction of mixture language before commenting further. 
H.R. 5820 has no preemption of state regulation regarding 
chemicals on which EPA has already reached a safety 
determination. Congress should consider a preemption to avoid 
disruption of interstate Commerce from potentially conflicting 
state laws. Protection of American intellectual property is 
weakened by this bill. By disclosing chemical identity in all 
health and safety studies, we in effect hand our innovation to 
foreign competitors with a long history of low quality copycat 
products. It is possible to fully inform the product--the 
public about health and safety information without publicly 
disclosing proprietary aspects of a particular chemical. This 
reflects our broader recommendation that EPA should be made the 
agency charged with making unbiased science based safety 
determination regarding chemicals. Let me be clear. SOCMA 
members are passionately committed to the public health, the 
protection of public health and the environment. We believe its 
legitimate role of Congress to weigh economic impact such as 
potential job loss against policy objectives. However, we 
respectfully contend that the government must avoid creating an 
unnecessary burden as would be the case with H.R. 5820. We 
understand the complexities associated with modernization TSCA 
and believe our chemicals policy goals can be accomplished in a 
way that does not devastate a strategic American industry. 
Thank you for the opportunity here and I would be happy to 
answer any questions.
    [The prepared statement of Ms. Bosley follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The Chair indeed thanks all the witnesses. And 
now it is time for the questioning of the witnesses by members 
of the Subcommittee. And for that purpose the Chair recognizes 
himself for 5 minutes for the purposes of questioning the 
witness. And I will begin with Dr. Denison and Mr. Williams.
    And my question to you is, Dr. Denison, you said in your 
testimony that H.R. 5820 will spur innovation and protect 
American jobs. Can you explain in light of your statement, and 
in light of some of the testimony we have heard today some of 
the exact feelings expressed--in your expounding in your 
statement in light of some of the anxiety that has been 
expressed about the bill's potential impacts on job retention 
and creation. Can you express--expound on your position on the 
retention and creation of jobs in regard to this bill?
    Mr. Denison. Yes, Mr. Chairman. Thank you. The U.S. has 
fallen well behind much of the rest of the world in its 
chemicals policies and practices. And I think that one of the 
things that this bill will do is to raise the standards in the 
U.S. to those of other areas of the world including the major 
markets of the chemicals industry. The motivation behind the 
improvement in those standards in other parts of the world has 
been as much to promote sustainability and create a more 
sustainable chemicals industry as it has to protect health and 
the environment. And I fear that the industry in this country 
right now is in a similar place to where the auto was a decade 
or more ago where it fails to recognized where the rest of the 
world is going and where its own markets are going. We need to 
have therefore, an industry that is driven toward innovation, 
yes, but innovation that includes safety as a critical, central 
element of that innovation. I couldn't say it better than a 
member, a representative from DuPont, one of ACC's companies 
that said in response to the REACH regulation in Europe that 
they would--they as a company that invested heavily in R and D 
and innovation saw REACH as a business opportunity to innovate 
the new chemicals that would be restricted under REACH, and be 
out ahead of the current in terms of creating the jobs, and 
creating the new products that will satisfy the growing demand 
globally for safer chemicals.
    Mr. Williams. Chairman Rush, to answer that question from 
my viewpoint, seven years ago when I began doing as much 
research as I could on this subject, I found in answer to a 
Google search how many people in America will buy 
environmentally preferable products. At the time and it is 
somewhat a smile to the face, it was approximately seven 
percent. And the person that put that information together said 
it is roughly equivalent to those who will vote for Ralph Nader 
is a Presidential Election. Today similar research says it is 
approaching 58 percent. Two years ago McGraw Hill did a smart 
reports survey where they said that environmentally preferable 
building products had reached the tipping point. We are an 
international company. We know that when we can put our 
products from here into the UK and into Europe where the buying 
preferences are to have environmentally responsible product and 
most especially the word you hear more often in Europe is PVC. 
You hear it, but you also note that they are not currently 
buying materials that are free of PVC. Our materials here that 
we are able to put together are preferable not just here in the 
United States, but also in Europe. And I think the definition 
of green jobs needs to change. I recently received a survey, 
fill this out; help me understand green jobs for Pennsylvania. 
I cannot answer that survey by answering the questions. I am 
going to have to footnote that survey because it talks about 
solar, it talks about renewable energy. That is such a limited 
view. We as a company are putting our products out into an 
architectural market that is asking for environmentally 
preferable products and responsible products. And they are 
reaching toward us and pulling that product almost literally 
off of our shelves. They are green jobs that we are adding 
every day to our business. And as the businesses in Michigan, 
and as the businesses in other states supply us with product, 
green jobs that are heretofore defined as different jobs, less 
defined as green jobs. These jobs are growing on a day to day 
basis here in the United States.
    Mr. Rush. Thank you. Dr. Mitchell, your organization 
defines environmental justice communities as ``low-income 
communities and communities of color that are 
disproportionately burdened with environmental hazards and 
suffer disproportionately from environmentally related 
diseases.'' Do you agree that this legislation will mark a 
tremendous step forward in restoring public trust in the 
American chemical industry and in EPA's ability to protect 
human health and the environment, and do you think that this 
bill will go a long way towards correcting some of the issues 
that are found in hotspots across the nation?
    Dr. Mitchell. Absolutely, Mr. Chairman. I think that people 
expect that government is going to be protecting them. When 
they go into a store and buy things off the shelf they expect 
that they are going to be safe. And they don't know that there 
is a safe product right next to a more dangerous product. For 
example, if you are looking at cleaning products. I think that 
this legislation will help to take more dangerous products off 
of the shelves, you know when there is a safer alternative. And 
also people will know what is in the products that they buy, 
and I think that that is very, very important. And 
environmental justice communities, you know we are very 
concerned about that and also we sort of put our members at 
risk. For example there are companies that are suing 
communities that are interested in finding out about the health 
effects of their violations, of their state violations of 
contracts specifically like in Mesquite, New Mexico. You know 
Helena Chemicals is suing the company. I think that that won't 
be necessary under this new bill that if government really can 
protect the public, I think that that will be very helpful.
    Mr. Rush. That concludes the Chairman's time. Chair now 
recognizes Mr. Whitfield for 5 minutes.
    Mr. Whitfield. Thank you very much and thank you all for 
your testimony. I noticed that one of the findings in this 
legislation relates to creating jobs that this legislation can 
help create jobs. And Mr. Williams you eluded to that and I 
think Dr. Denison, you indicated that the chemical policies and 
practices in the U.S. were not as progressive as they were in 
the rest of the world. And the point that I would make is if we 
were creating all these green jobs, then why is our 
unemployment rate still at almost 10 percent? And why is the 
unemployment rate in most countries in Europe greater than in 
the U.S. if what you are saying is this kind of progressive 
legislation will be creating jobs? Now that is a little aside 
to the real purpose of this legislation, but I don't think we 
should be trying to sell this legislation on the fact that we 
are going to create a lot of jobs with this legislation. Mr. 
Dooley, is this legislation, do you expect this legislation to 
create jobs in your--in the members of your association?
    Mr. Dooley. No, absolutely not. And we are absolutely 
convinced that it would result in a significant reduction and 
the ability of the U.S. manufacturers and the chemical industry 
to continue to be the international leader at bringing new 
innovations and new products and maintaining our manufacturing 
base here in the United States. And you know I find it 
remarkable that Mr. Denison would say that somehow the U.S. 
chemical industry is falling behind. In the United States last 
year one out of every 10 patents that was issued in this 
country was issued to the chemical and chemistry industry. We 
are by far the leader of any chemical industry internationally 
in terms of the new innovations that we are bringing to market. 
When we see a consumer demand for a safer alternative, it is 
going to be our industry that is going to be the forefront in 
meeting that consumer demand. And when you look at the 
provisions in this, when you look at the safety standard that 
would require somebody that might have a new, maybe it is an 
advanced solar cell that has a chemical that just might be on 
the--subject to a safety determination, before they could bring 
that, you know, green product that could increase our energy 
efficiency and energy security, they would have to go out and 
identify every other product in the marketplace that had that 
same chemical in it. They would also have to analyze every 
ambient exposure to it be in the air, water, and soil before 
they would even have the chance to demonstrate that they could 
meet that reasonable certainty of no harm. If you think that 
this is somehow going to create jobs in the United States, I 
would beg to you to come and visit the industry and understand 
how it works, let alone the new chemicals provisions which 
would also we thing would thwart and impede the development of 
new products and new jobs in this country.
    Mr. Whitfield. Ms. Bosley, do you think it would create new 
jobs in the--your members?
    Ms. Bosley. No, I can give you an example of--so in 
everybody's car there is a piece that connects the roofing to 
the frame. It is a plastic piece that is not very long. There 
is about 19 chemicals that go into that singular piece. 13 of 
those chemicals are hazardous to some extent and they are all 
as you might imagine low margin chemicals. We live in the 
reality of a market economy, and you make what you can make for 
the price that the market is willing to pay for it. If those 
chemical companies are going to have to go back and do the 
increased burden of 5820, there will be no margin left for 
them. So now not only have you lost the jobs associated with 
the manufacture of those 19 chemicals, you have lost the 
polymerization jobs, the extrusion jobs, and now that piece is 
going to come into the country as an article which is beyond 
the reach of EPA.
    Mr. Whitfield. Well, you know this points out that we do 
have to have a balancing act here, because yes, we want safe 
products. We want to make sure the chemicals are safe, but we 
don't want to damage our economy particularly at this point in 
our nation's history where we are struggling to come out of a 
down economy. So and I noticed that in this legislation they 
abolished the unreasonable risk standard and least burdensome 
method to proceed, so that they consider--do not consider 
particularly the impact on jobs per say, which I think 
realistically at least have to think about. Well, I see my time 
has expired.
    Mr. Denison. Congressman, maybe I could respond to Mr. 
Dooley? I do think there is a fundamental misunderstanding of 
the bill. He said in his oil statement and again just now that 
somehow company--an individual company would have to go out and 
assess the exposure not only to their use of the chemical but 
to everybody else on the market. That is a fundamental 
misunderstanding of the--that is a role for EPA under this 
legislation, not for an individual company to do those 
assessments. I just want to set that straight.
    Mr. Dooley. Mr. Chairman, if I can respond to that is our 
reading of the legislation it is a clear statement that the 
burden of proof lies with the manufacturer. When you look at 
the safety standard and the obligation to assess aggregate 
exposures to a chemical that is bringing into the market, in no 
way does it state clearly that that is the responsibility of 
EPA. Now if that is the intent of the authors, then that is 
something that we would be more than pleased to work with you. 
But as we read the legislation today, that is a burden, and an 
obligation, and a responsibility on the industry.
    Mr. Rush. The Chair now recognizes Ms. DeGette for 5 
minutes.
    Ms. DeGette. Thank you, Mr. Chairman. You know, Mr. Dooley, 
when we served together in Congress I never disagreed with you. 
I think that is about to change I am sorry to say. I want to 
talk for a minute about this issue of the manufacturers' 
burden. Because what you have been talking about is that you 
think that industry has the burden of showing with reasonable 
certainty that all aggregated exposures from the use of the 
chemical pose no harm. Right? Yes, OK, but take a look at--well 
I don't know what section it is--it is, I will get you the 
exact reference. It is on page 44 of the draft legislation, a 
manufacturer is only responsible for showing reasonable 
certainty of no harm for a chemical's intended use. And 
industry would not have to conduct studies considering all 
exposures to a chemical. So would you agree that a standard 
based on intended use would not require companies to prove that 
all uses and exposures are safe? You need to turn your 
microphone on, Mr. Dooley.
    Mr. Dooley. There are other sections of the bill when you 
get to the safety standard and what it would trigger. It was 
subject to that is that the intended use isn't the trigger is 
that if you have the intended use that has that chemical in, as 
we have read and interpreted it will result in the obligation 
for the assessment of all other aggregate exposures.
    Ms. DeGette. Mr. Owens, do you--is that the intention with 
this legislation?
    Mr. Owens. Representative DeGette, we didn't draft the 
bill, so I can't really speak on what the----
    Ms. DeGette. OK, well, I mean is that your interpretation 
then of the draft legislation?
    Mr. Owens. Well, I think that--let me put it this way. The 
way that that standard has worked for example it is a standard 
that is used as Dr. Denison said and others have said in our 
Food Quality Protection Act we evaluate pesticide potential 
exposures with reasonable certainty of no harm standard and we 
at EPA evaluate the aggregate exposures when we are making that 
safety determination. Now whether that is how this is written, 
I know our lawyers are still looking at it at our agencies, so 
I can't really say right now what their conclusion will be. But 
that is how we have done it.
    Ms. DeGette. And Mr. Dooley, I will tell you that what I 
just said is our intention, too, so if we need to work together 
on fixing this language we are happy to do that, but that is 
our intention. I wanted to ask you, Ms. Bosley, in your written 
testimony and you referred to this also today in your oral 
testimony. You said the U.S. chemicals industries 
competitiveness has continued to decrease substantially in 
recent years due to competition from countries like China and 
India with lower resource costs, lower wage standards, and a 
less burdensome regulatory environment. I am going to assume 
that it is not your organization's positions that we should 
decrease wage standards and decrease the regulatory environment 
in the United States. That is not your position, is it?
    Ms. Bosley. Certainly not.
    Ms. DeGette. And I would also ask you, I would think that 
your organization would also believe that we need to renovate 
TSCA for this new century. Correct?
    Ms. Bosley. We do.
    Ms. DeGette. And also, Mr. Dooley, your organization would 
think the same. It is not that you oppose re--you know fixing 
TSCA for this new environment that we have now. Right?
    Mr. Dooley. No, we have made this one of our highest 
priorities.
    Ms. DeGette. Right, you also, and in fact both or your 
organizations have been at the table during the negotiations, 
so I have a--I want to ask both of you this question.
    Mr. Dooley. I would--I would put negotiations in 
parenthesis. I wouldn't necessarily characterize the 
discussions as negotiations.
    Ms. DeGette. OK, well, here is my question to you. Is--what 
safety standards does your organization recommend that we 
adopt?
    Mr. Dooley. We would think that we could learn some 
terrific lessons by looking at what Canada has done in the past 
couple of years and instituting a reform that their chemical 
management system which is very similar with the concepts that 
we have developed out where you would develop, you would 
prioritize the chemicals based on reason with those we should 
of greatest concern.
    Ms. DeGette. So you think the Canada standards would be 
appropriate standards for us to look at?
    Mr. Dooley. That the Canada scheme and their system would 
be much more I think appropriate in terms of prioritizing the 
chemicals based on the risk of exposures and then adopting a 
system where you would determine how you can manage those risks 
for those products as they are put into the marketplace for 
their intended use.
    Ms. DeGette. Thank you. Ms. Bosley, what standard would 
your organization at safety standard?
    Ms. Bosley. I would agree. We have--we are a proponent of 
Canada's system also and I might say is the first thing Canada 
did was to put their arms around the exact number of chemicals 
in Commerce. Canada has a similar number of 75 or 85,000 
chemicals that were on a list called the DSL. They through 
polling of industry they paired that list down to 23,000 
chemicals that were actually in Commerce. Some of the chemicals 
were no longer manufactured, or imported into Canada. Many of 
the chemicals were no longer manufactured. When they had that 
list of 23,000 they were having a much better area in order to 
prioritize that list and require a different base set of 
testing depending on the highest priority chemicals.
    Ms. DeGette. Dr. Denison, could you just respond to these 
suggestions by Mr. Dooley and Ms. Bosley?
    Mr. Denison. Certainly. I applaud what Canada did. As a 
very small country with a tiny percent of the global chemicals 
market and the vast majority of those chemicals being imported 
rather than produced there it made sense for them to do what 
they did. But it is far away from being a proper model for the 
United States of America. In fact, they--their process was 
hampered enormously by the enormous data gaps that led them not 
to be able to even classify thousands of chemicals against the 
criteria that they used to prioritize chemicals. Moreover, they 
found that many of the chemicals, in contrast to what Ms. 
Bosley said, they only actually started with 23,000 chemicals. 
They didn't have 75,000 chemicals. We have a much bigger 
problem on our hands, and we need a much more systematic 
solution that speaks for the fact that we have a major part of 
the global chemicals market.
    Mr. Rush. The Chair recognizes Dr. Gingrey for 5 minutes.
    Mr. Gingrey. Mr. Chairman, let me address my first couple 
of questions to Mr. Cook. Mr. Cook, industry witnesses have 
expressed concern that if this bill passes as it is written it 
will drive innovative manufacturing outside of the United 
States and indeed kill high paying American manufacturing jobs. 
Do you have any concerns that the global environment could 
suffer if we force this type of manufacturing to countries with 
much less robust or even indeed nonexistent environmental 
controls?
    Mr. Cook. I would be very concerned if that were to be the 
case, Congressman. There is no question. I was surprised to 
hear it brought up by my colleague at the table that the 
industry is already losing jobs. We are already shipping jobs 
overseas not because we have toughened our regulatory 
standards, of course we have not done anything for 30 years, 
but simply because it is cheaper to do business over there. 
That is where our chemical industry is going.
    Mr. Gingrey. Well, excuse me, Mr. Cook, but you say not 
because of regulatory standards. These regulatory standards 
that we are talking about in this bill are not inexpensive. Let 
me shift real quickly. I will come back to you because this 
issue of jobs is real important, certainly real important to 
our side of the aisle as you can tell from the questions. Mr. 
Williams, I think in your either response to a question or 
maybe your testimony, you said that green jobs would come out 
of the State of Michigan? Are you talking about Flint or 
Detroit? Where exactly in Michigan are you talking about that 
we are going to grow green jobs?
    Mr. Williams. OK, what I was talking about the growth of 
green jobs were as our product demand rises, our supplier in 
Michigan produces more product and hires more people to----
    Mr. Gingrey. But Mr. Williams, how long do you expect that 
to take? The people in Michigan are suffering pretty badly 
right now, they are not----
    Mr. Williams. I am sure they are and candidly I am on your 
side of the aisle. I was pleased as a conservative Republican 
Central Pennsylvania a county that goes Republican in every 
election to be able to come here and to be able to speak 
because I do think we share a tremendous number of same beliefs 
and values in job creation here in America. I don't want to see 
that go----
    Mr. Gingrey. Yes, sir, I understand. Of course, these are 
not political questions. We are just talking about what is good 
for the country, whether Republican or Democrat. But let me 
shift back to Mr. Cook, because I had another question for him. 
In the conclusion of your testimony you state and I quote, 
``The federal government must place a greater emphasis on 
biomonitoring of cord blood.'' Then you also state that, and 
this is a quote, too, ``detection of a chemical in umbilical 
cord blood does not prove that it will cause harm.'' Well, last 
November the CDC stated on the record before this Subcommittee 
that our ability to detect chemicals through biomonitoring, and 
this is their quote ``is exceeding the ability to actually 
determine whether health effects are occurring.'' So, why then 
should the federal government devote more resources, a 
tremendous amount of resources to an enormously expensive 
procedure that you state isn't an indication of health risk and 
the CDC states isn't offering an increasing rate of return on 
health risk? This cord blood monitoring.
    Mr. Cook. That is an excellent question, Congressman, thank 
you, and a couple of points. First of all the CDC is continuing 
to do extensive monitoring precisely because they know that the 
raw material for the decision making process that you need to 
start figuring out some of these health effects and some of 
their impacts is biomonitoring information. In my case I don't 
think anyone should argue that because you are exposed to a 
chemical means that you are going to come down with the disease 
or illness that might be indicated by animal studies. But we 
find that as the American people have waited, and waited, and 
waited some more for the government to do anything to protect 
them by modernizing this law, they want to know what they are 
being exposed to so that perhaps they can take some steps on 
their own while the government is making up its mind.
    Mr. Gingrey. Well, yes, and it is just like Dr. Mitchell 
was saying about the importance of designated areas across the 
country of hotspots. First thing you know these folks that are 
working, and living, and maybe employed at these companies that 
the manufacturing companies, chemical manufacturing companies 
they are going to think they are living a super fund 
neighborhood. And I--as I said in my opening remarks I think we 
are scaring the heck out of everybody. Let me make one last 
quick question, Mr. Chairman if you will bear with me because I 
did want to shift back to our former colleague Cal Dooley. You 
had some props there and you held them up and one of them was a 
Blackberry. How many of your props would meet safety standard 
under this bill? And for the sake of argument, assume that they 
don't. Under this bill, how long would it take to get a 
comparable alternative pilot to the market?
    Mr. Dooley. Excuse me, thank you again. Based on our intent 
and interpretation if they were in fact subject to the safety 
determination is that we quite frankly don't know if we could 
gather the information on the aggregate exposure that would 
allow EPA to make a determination whether or not we could bring 
that to market. We don't think we could get there. And the 
problem is with a new chemical you are saying how long will it 
take us to develop a new chemical? Well, you have all the R and 
D that is going into that as well, but then you have to then 
before you can bring that chemical to market you are going to 
have to make the investment, too, on the data that is going to 
be required. We look at that as probably being in the ball park 
based on our experience with the data we have been providing on 
the HPV program at EPA to be probably in the million dollar 
range. Then you have to wait another year for EPA to make--
maybe make a determination on whether or not that product is 
safe to bring to market. So you are, you know, you are probably 
looking at a minimum of two to three years before even an 
alternative could even be available to come into the market.
    Mr. Gingrey. Thank you, Mr. Dooley. Mr. Chairman, I yield 
back, thank you.
    Mr. Denison. Can I reply briefly to that, Mr. Gingrey? I do 
think that this is not a standard that has come out of space, 
dropped out of space. We have had this standard in place in the 
pesticide arena for 14 years and 9,000 pesticide tolerances 
have been reviewed under that standard. The majority of which 
remain on the market today. They met the standard. And it 
required aggregate exposure assessment. Now I am not saying 
that standard gets moved over without any adjustment, but it is 
not as if we are starting out from scratch here.
    Mr. Dooley. You know I must say before I came to Congress I 
was a farmer. And I used a lot of pesticides. I was in Congress 
when we put forth these regulations that Richard just mentioned 
in that this is a standard. But people need to understand is 
that on a pesticide you have a limited set of uses. It has to 
be registered for a specific number of crops that it could be 
applied to. There is a defined universe of exposures that an 
individual is going to encounter. It is easy in those 
situations to identify the aggregate exposure. When you look at 
a chemical, like it might be polysilicon it could be used in a 
thousand different applications and products. It could have 
different pathways of entry into, you know, of through those 
exposures. And the difference between a pesticide and why you 
might want to have a different standard there is that they are 
meant to be consumed. You are all going to consume them in the 
vegetables and the products you eat. You are not going to be 
eating a solar cell. You are not going to be eating your 
Blackberry. It has a much less of a level of risk of exposure, 
and that is why it should have a different standard of safety 
than what we are using in the pesticide industry.
    Mr. Rush. Mr. Cook, do you want to respond?
    Mr. Cook. We were heavily involved in the development of 
the Food Quality Protection Act idea. Point number one is this 
if I may borrow that, Cal. I prefer I Phones, but then again, 
your microphone works, so this ought to be as safe as a 
pesticide. That is all we are saying with no reasonable 
certainty of no harm, and when the agency determines that this 
product's packaging is safe then it is very unlikely that the 
next manufacturer coming along is going to trigger the safety 
standard and require years of review. So I just think it is--I 
disagree with my friend, Cal on that particular point. I 
believe as Richard has suggested, Dr. Denison has suggested, 
some chemicals are not going to make it under your law. If--
when it becomes law. A very large number, probably most are 
going to meet the safety standard with modest changes. If it is 
a chemical that ends up in this, Dr. Gingrey, then I think--and 
we know that because we have looked, then I think stepping back 
we will say, well, if it meets the safety standard is it likely 
that more exceedances, more products will cause it to exceed 
it. I think the agency will be in a good position to say yes, 
or no without having every company that is trying to use this 
same plastic going through an elaborate exercise. So I think it 
can be very workable. And I think if we set the standards so 
that we reward R and D, if as Dr. Denison said innovation comes 
to embrace safety, we will be creating jobs here that our 
competitors overseas who don't invest in R and D won't be able 
to meet. But if we don't, if cost, and price, labor is the only 
consideration our jobs are going to keep going overseas.
    Mr. Rush. The Chair now recognizes the gentleman from 
Maryland, Mr. Sarbanes for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman, thank you for your 
dogged determination to make sure we reform this statute and 
have the right kind of safety measures in place. I, as you 
know, I strongly support the legislation that has been 
introduced and was glad to be a co-sponsor of it. I think again 
as I have said every time I get the chance on this matter, the 
average American listening to this discussion would be amazed 
at how little we know about so many chemicals that are out 
there in the stream of Commerce. And frankly, must view it as 
an abdication of the responsibility of government to act on 
their behalf to protect them. So I would have like to have seen 
even stronger of provision perhaps in this. I am very happy 
with what is in it, and I am incredulous at industry's 
insistence that this is going to compromise them, handicap 
them, whatever phrase you want to use. I have boundless 
confidence that the chemical industry will figure this out and 
keep right on going. And I also understand just on the last 
point that was made by Mr. Dooley about how long it would take 
for certain things to happen. My understanding is that there is 
a faster track that can be pursued for looking at safer 
alternatives in some instances and so forth. So I just believe 
you are going to be able to assimilate these new requirements 
and frankly there is two dimensions to this. There is the 
consumer protection piece which I think is the--my first 
motivation. But there is also I think the opportunity for the 
business community to profit from having these new regulations 
in place. We are hearing all this stuff about how it is going 
to undermine jobs and so forth. I actually think it is going to 
improve the prospects of businesses that manufacture products 
that have these chemicals in them and I will tell you why. The 
more the public becomes aware of the fact that there is a lot 
of these chemicals out there that nobody really has a handle 
on, I think the more--and I don't think it is because of 
alarmism, I think it is just their own educated perspective. 
The more concerned they become about using these products 
whether it is because they are concerned about their children's 
health or they are concerned about their own health. I mean 
frankly I have started to try to minimize my--I mean it may be 
having an impact on the way our house looks, but I am trying to 
minimize the use of cleaning products in my house because I 
don't know, and that is what is really--what is in those 
products. So people are going to start reacting to the 
information that is out there that there not being enough 
oversight in place with respect to these chemicals. And I think 
it is going to harm the businesses and the industries that 
deliver those products to the public. And if we can restore 
confidence that these products have gotten the right kind of 
look and that the chemicals that go into them have been 
determined to be safe, et cetera, I think they are going to be 
more likely to want to purchase those products and it is going 
to be better for business. Now I just wanted to ask Mr. Denison 
getting back to this narrative about the bill hampering 
innovation, shifting production to developing countries, and so 
forth. When you look at regulation in the U.S., and Canada, and 
Europe, and so forth do you subscribe to the notion that having 
this TSCA reform in place is going to significantly undermine 
U.S. innovation and competitiveness?
    Mr. Denison. Congressman, I do not. I think there is a very 
strong record of better regulation spurring innovation and 
providing industry with a certainty as to what its targets are 
for meeting those regulations, and for meeting consumer demand 
that is based on them. I think you are absolutely right to 
point to the consumer confidence issue. In fact, ACC's decision 
to embrace modernization of TSCA was based on large part on 
their concern that the consumers were losing confidence in the 
safety of their products. We have to have real reform in order 
to restore that confidence. And that means we have got to have 
much better information, but we also have to have a government 
that is able to act on that information. And that doesn't mean 
weakening the safety standard. If Ms. Bosley is right, then 
many of her--of SOCMA's chemicals are intermediates with very 
limited exposure. Then they will pass the safety standard that 
much more easily. That is not a reason to lower the standard 
and to put U.S. companies at a disadvantage to other parts of 
the world that have those higher standards. So I totally reject 
the notion that a stronger regulatory program will impede 
innovation. It will spur it.
    Mr. Sarbanes. I appreciate that and I just have run out of 
time. I will just close by saying I think industry can really 
step--the government and industry can partner around good 
strong standards and take this thing to the next level. 
Everybody is going to come out the better for it, industry and 
the public. So with that I yield back.
    Mr. Rush. The chair now recognized the gentleman from 
Pennsylvania, Dr. Murphy for five minutes.
    Mr. Murphy of Pennsylvania. Thank you, Mr. Chairman. Thank 
you to the panel. I would have many of you to know that I 
believe at the beginning of the 20th century life span was 
about 45 years or so. By the end of the 20th century it has 
reached 70 some years. Does anybody know why? Any guesses? Dr. 
Mitchell, do you have anything?
    Dr. Mitchell. Yes, the major thing that happened is public 
health and prevention, you know, especially water, sewer, 
public sanitation all those things.
    Mr. Murphy of Pennsylvania. But, of course, chlorine is 
toxic. I don't know if anybody's abdicating we stop 
chlorinating water. Any of you doing that? Here is a question I 
had, too. Mr. Williams, I had to step out of the room during 
your testimony. I read it and I am really impressed with new 
building designs and new building materials particularly ones 
that avoid carcinogenic materials. I want to ask you if in the 
materials one uses in buildings, too, do you also look at 
paints, and the substances that might reduce mold risk as 
positive factors there?
    Mr. Williams. That is not, we don't manufacture products of 
that type.
    Mr. Murphy of Pennsylvania. I mean use them. Do you use 
them in buildings or do you recommend them?
    Mr. Williams. Only in our own buildings.
    Mr. Murphy of Pennsylvania. OK.
    Mr. Williams. And----
    Mr. Murphy of Pennsylvania. Can you give us reasonable 
certainty that there is no harm will result from use of those?
    Mr. Williams. I am not familiar with paints.
    Mr. Murphy of Pennsylvania. There is also a lot--there is a 
concern that more people die from diseases they did not have 
when they went to the hospital than by diseases they went to 
the hospital for.
    Mr. Williams. They are socomial, yes.
    Mr. Murphy of Pennsylvania. They are socomial infections or 
a wide range of those. We know that a lot of paints are being 
developed now. A lot of antimicrobial paints, a lot of 
antimicrobial clothing to reduce the risk of that, so for you 
and for Dr. Mitchell, somewhere in here there may be a payoff. 
Some of these are treated with silver and one can have silver 
toxicity. Some have a certain level of nanoparticals including 
zinc. Zinc is pretty toxic, too, and so the question is given 
that no socomial infections affect about two million people a 
year cost $50 billion of health care system that kill about 
100,000 people a year, can either of you give me some certainty 
that no harm will result from using or not using these?
    Mr. Williams. First of all we at one time researched and 
began to use an anti-microbial within our product. A couple of 
points to that. Research has shown for years that the vast 
majority in perhaps from the 95th to 98th percentile of all 
known socomial infection is caused by procedures and by health 
workers failing to wash their hands. If you look at facilities 
today you will find numerous----
    Mr. Murphy of Pennsylvania. Sure, but though I might had I 
have worked in hospitals for 30 years, but I also know that 
someone washed their hands, they could touch their clothing, 
they could touch their tie, touch a pen, touch a stethoscope, 
touch a doorknob, and when surfaces are coated they may produce 
it, but the point it when you wash your hands your are also 
using chemical agents which can be toxic.
    Mr. Williams. Right, well, what----
    Mr. Murphy of Pennsylvania. Also saying one of those which 
can be very toxic, but you know the common use is to wash your 
hands. Because you wash your hands a lot all day does that end 
up with other problems? And my question is you are providing 
valuable information. My question is where is the line here in 
terms of trying to help this?
    Mr. Williams. Well, what we found is as we began to think 
we had a good product that at the time was using an additive 
for anti-microbial we found that in order to raise the content 
level sufficient to kill in a time frame that someone else then 
wouldn't come touch, we stopped using the product because we 
realized we would virtually have to have a sign on the product 
that said please don't touch for four and a half minutes while 
anti-microbial kills. And that was the difficulty with that 
although there are a great number of antimicrobials out there 
we are also seeing that health care leaders such as Kaiser-
Permanente is refusing to use products with antimicrobials in 
them. A lot of this is a market driven issue from the 
manufacturing and a marketing company. We thought we had the 
right stuff with the antimicrobials.
    Mr. Murphy of Pennsylvania. So if they are not using them 
are we going to be developing new ones?
    Mr. Williams. No, I think the thing is they are not using 
them because of the toxicity at the level at which they would 
kill as opposed to base product----
    Mr. Murphy of Pennsylvania. Well, my concern is I would 
hope you would work with this committee----
    Mr. Williams. That is OK I guess----
    Mr. Murphy of Pennsylvania. I hope you work with this 
committee to help make sure we are able to develop new----
    Mr. Williams. Right, yes, and I think this final answer is 
efficacy on some of these things is a very important issue.
    Mr. Rush. The Chair wants to inform the members of the 
Subcommittee and also the witnesses if I can impose on your 
time for a second round of questions or one question each per 
member. I think that this would be important for the 
deliberation of the Subcommittee. And with that the Chair will 
extend the opportunity for each member to ask one additional 
question. Only one question and the Chair will begin with 
himself for his one additional question.
    I am not--I just want to ask, I think I will ask this of 
both Mr. Dooley and also Mr. Cook. This is a pretty 
controversial question I am going to ask, but there are some 
people who have stated that this--the TSCA reform is necessary 
to fight cancer. Will you respond to that? And do you agree 
with that and respond and what do you think about that 
statement?
    Mr. Cook. Mr. Chairman, I think there is no question that 
protecting public health from exposure to these toxic chemicals 
is a vital part of what we need to be doing to make sure we are 
being cost effective and smart about prevention of cancer and 
other chronic diseases. There is a very strong literature on 
this subject. We can do it at a modest cost in many cases. We 
are not talking about giving up modern life. We are talking 
about moving to safer substitutes. We have done it before. We 
got lead out of gasoline, got rid of PCB's, everyone said we 
wouldn't have an electrical grid. Took care of DDT, went off 
the market, people--some people said we wouldn't have food, so 
we can do this. If we don't though and if we don't conduct the 
kinds of studies and collect the kind of information that your 
legislation would for the first time require, we are going to 
continue operating in the dark. And I go back to the 
President's cancer panel. Just this year very strongly saying 
that including exposures before we entered the world in the 
womb and going forward we have grossly underestimated the 
contribution that these chemicals are probably making to cancer 
in this country, that one half of all men and one third of all 
women one day will get that diagnosis.
    Mr. Rush. Mr. Dooley.
    Mr. Dooley. Yes, let me answer it this way is you know our 
industry absolutely is committed to insuring that every product 
that is on the shelf is safe and that EPA has the ability to 
work with the industries, we are providing the appropriate data 
and information to insure that they can make a determination 
that that product is in fact safe for its intended use. In 
reference to the specific issue in terms of cancer is that that 
is where we go back to where we ought to be embracing a system 
of prioritizing those chemicals that are greatest concern. And 
we ought to be focusing the resources and the expertise of both 
the regulatory sector as well as the private sector on 
understanding what are those risks and can those risks be 
managed? And so we would suggest rather than the blanket 
approach that is embodied in this legislation that would 
ultimately require every chemical to have a safety 
determination, is that we ought to identify those chemicals 
that we know are carcinogenic, that maybe they are an endocrine 
disruptor, maybe they are a persistent in bio-cumulative toxin. 
And those are the ones that we say, you know what we need to 
understand more about these. We need to ask industry to provide 
us more research and data. We need to EPA spending more time 
and effort and analyzing whether or not we can manage the risk 
of those products in Commerce. And if we do that effectively I 
think we are going to have a more efficient effective system 
that is going to contribute in reducing some exposures to some 
products that might be being used now that might in some way be 
contributing in limited instances to increase in some diseases.
    Mr. Rush. The Chair now recognizes our Ranking Member Mr. 
Whitfield for one question.
    Mr. Whitfield. Thank you. Before I ask my question and Mr. 
Chairman, I ask unanimous consent for inclusion in the record 
the testimony of Charles M. Auer pursuant to the previous 
agreement with you all and members maybe they are able to 
submit questions to him for the record.
    Mr. Rush. The Chair is mindful of that agreement and 
hearing no objections so ordered.
    Mr. Whitfield. And then I ask unanimous consent that we 
submit for the record letters and statements regard on this 
legislation from 12 different groups.
    Mr. Rush. Hearing no objections so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Whitfield. For my question, first of all thank you all 
very much for your patience and being with us today. We 
appreciate it. Mr. Owens, in your testimony you talked about in 
1989 the court case in which EPA ruling phasing out the use of 
asbestos that a federal court overturned that decision by EPA 
because the rule failed to comply with the TSCA regulation or 
requirement. I was wanting--I wanted to know specifically what 
part of the TSCA, the existing TSCA law was that decision made 
on?
    Mr. Owens. Thank you, Congressman. Can you hear me? Thank 
you, Congressman Whit for the question. It was a decision 
called the corrosion proof fittings decision and the Federal 
Circuit Court of Appeals looked at basically the two 
significant obstacles that EPA has to overcome in order to 
regulate any toxic substances under TSCA in this case 
specifically asbestos first. There was the requirement in the 
law that we determined that there defined that there was an 
unreasonable risk of harm from the substance in this case 
asbestos. And then once we made that determination to select 
the least burdensome alternative to regulate that substance. 
And it is a very length, technical, complicated decision where 
they went through a whole host of various alternatives that 
might exist out there and determine that----
    Mr. Whitfield. But it was based on the unreasonable risk 
and least burdensome----
    Mr. Owens. Both there was a--and the basic conclusion as 
was said despite nearly unanimous scientific opinion that 
asbestos creates an enormous range of health problems including 
cancer that EPA could not meet the burdens under the existing 
statute to eliminate any uses of asbestos or to significantly 
regulate those uses.
    Mr. Whitfield. Thank you.
    Mr. Rush. The Chair now recognizes Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Mr. Dooley, you said 
I think you said something to the effect of rather than 
requiring that every product have a safety determination that 
we focus on those that we know are harmful, potentially 
carcinogenic and so forth. But I don't really understand that. 
In other words how are we going to know that something is not 
harmful or carcinogenic if we don't do a safety determination 
on it? I understand that there is ones that we know right out 
of the gate are the worst of the worst and so forth, had that 
discussion in other hearings and we want to move quickly on 
those. But if you don't have a process that conducts a safety 
determination of a chemical how are you going to know that it 
doesn't fall into fall that other category?
    Mr. Dooley. Because, Mr. Sarbanes, I think that it is 
probably an area which we agree on is that--and I think EPA 
would acknowledge is that they have the ability by reviewing a 
data set, by reviewing the chemical characteristic, the 
molecular weight, the molecular structure, comparing it to 
other chemicals of similar composition is that they can make 
determinations on which chemicals are going to be those of 
greater concern. There is, obviously now, there is a number of 
different databases out there where they have identified, you 
know, carcinogenic chemicals; where they have already 
identified chemicals that could be an endocrine disruptor. 
Those lists are currently available today. And so there is, but 
there is also I think broad recognition that there is a lot of 
chemicals in Commerce today that pose really very little health 
risk. And so why should we be, again, requiring EPA to spend as 
many of their attention and resources on those low concern 
chemicals versus those that would be of the greatest concern? 
And the issue on the safety determination, the safety 
determination is what triggers, you know, the obligation to go 
out and to consider every aggregate exposure from that 
chemical. And so do you want to have EPA, which under the 
legislation in the first 12 months they have to identify 300 
chemicals. They would be required within 30 months to go out 
and with those 300 chemicals that could have--maybe each one 
had a, you know a hundred applications, or in the marketplace, 
30,000 different, you know products that they are in is that 
they would have to go out and do an aggregate assessment of all 
of the exposures resulting from those 300 chemicals, and make a 
determination in whether or not they could meet that standard 
of a reasonable certainty of no harm, of a having adverse 
impacts on the public welfare. I mean, you know, I don't--you 
know when you look at the track record of EPA and their 
evaluation of chemicals, I mean, I would be astounded if Mr. 
Owens today could tell you that it would be even remotely 
possible for them to conduct a safety determination on 300 
chemicals in the next 30 months after this legislation was 
implemented.
    Mr. Sarbanes. Well, let me ask Mr. Owens. I mean do you 
think you have got the ability and as I understand it the 
statute makes clear that there is certain shortcuts that can be 
taken depending on the kind of chemical that you are looking 
at. So do you think you have the ability to move forward on 
this in a deliberate and timely way?
    Mr. Owens. Well, Congressman, I think the bill also 
provides for additional resources for EPA to conduct that 
activity. So I think the short answer would be if we received 
the additional resources we could make, depending on the level 
of resources, substantial progress toward achieving a goal like 
that. But it will depend in part on us getting additional 
resources from Congress to achieve some of the mission that you 
would direct us to do.
    Mr. Rush. The Chair now recognizes Mr. Murphy.
    Mr. Murphy of Pennsylvania. Thank you. I would like to ask 
perhaps again, you have heard my questions before about some of 
these substances that have some medical prevention 
applications. Many chemicals used in medicines can make them 
more effective, some preventative objects, some antimicrobials, 
anti-bacterial. Where does this bill, in this current version 
sit in terms of being able to encourage further research 
development application and even current use of some of these 
chemicals and products whose goal is and intended use is to 
treat disease and prevent infection? Will this help it, hurt 
it, stop it? What?
    Mr. Dooley. Well, again with our interpretation and 
understanding of the legislation is that we think it would hurt 
it and harm bringing new products into the marketplace. I mean 
I have another one of my props here that I haven't used yet, 
but it is a hand sanitizer.
    Mr. Murphy of Pennsylvania. That is dangerous stuff.
    Mr. Dooley. It is. And it would have, you know its problem 
ingredient is ethanol, ethyl alcohol. It is quite possible that 
ethanol, would, could be listed as a chemical of concern and at 
some point would be required to be subject to a safety 
determination. Again, under what is required under the Act is 
that legislation of this be as it was implemented, once it was 
on that safety determination, you would have to go out, again, 
and to identify every product that had ethanol in it in 
Commerce today and maybe those that are in naturally occurring. 
So that would incur your fuel, your biofuels, it would incur 
your wine and occasional gin and tonic that I drink. It would 
include, you know, thousands of different applications that 
then would require EPA to make a determination. Is there a 
reasonable certainty that this poses no harm? Well, of course 
it poses some harm to some, you know, in some instances because 
it is designed to kill things. And that is where we think it 
is, you know we have to be very careful with this standard. If 
you don't have a standard that is set appropriately is that it 
is going to harm a lot of innovations that have a lot of 
positive contributions that it can make. And again I go back if 
it is on list of 300, and the EPA hasn't made the determination 
is that if the language says you cannot bring a new application 
a new use of that chemical to the marketplace until EPA has 
completed the safety determination.
    Mr. Murphy of Pennsylvania. Thank you.
    Mr. Denison. Congressman, could I also answer that 
question?
    Mr. Rush. Do you have a comment, Mr. Denison on the last 
question?
    Mr. Denison. Very briefly, yes. I think there is some 
confusion about the scope here. I mean, first, Cal your wine 
and beer are fine. There is an exemption right up front for 
alcoholic beverages. But medical----
    Mr. Dooley. The exemption that they wouldn't regulate it by 
toxic----
    Mr. Rush. Mr. Dooley, Mr. Denison is recognized. He has the 
time.
    Mr. Denison. Thank you. Medical applications and drugs and 
so forth are not intended to be covered either here, so I think 
there is some confusion. The other thing is I think there is an 
interpretation of this standard that somehow it is a zero risk 
standard. That it would drive anything that has any hazard 
whatsoever off the market. It is not in its application under 
The Food Quality Protection Act, it is a risk based standard 
that establishes a level of risk that is going to be 
acceptable. So I think that is really important to understand 
here.
    Mr. Rush. Mr. Dooley.
    Mr. Dooley. And Rush, I just want to--when he said I didn't 
understand the legislation, the exemption for alcohol is to 
ensure that it exempted from TSCA. It doesn't exempt it from 
being considered in the aggregate exposures that would result 
which was the point that I was making.
    Mr. Rush. Mr. Scalise is recognized for one question.
    Mr. Scalise. Thank you, Mr. Chairman. I have a question for 
Mr. Owens and I would like a comment back from Ms. Bosley and 
Mr. Dooley as well. Chemical distribution companies have a 
unique role in the supply chain in that they serve as middle 
men for the manufacturers and industrial customers. A majority 
of distributors also blend chemicals and mixtures, and 
distributors that provide blending services could be subject to 
many of the requirements of this legislation that manufacturers 
are subject to. It is also feasible they will have to gather 
use and exposure info for other areas of the supply chain. Are 
you concerned that this bill could have a disproportionate 
impact on chemical distributors?
    Mr. Owens. Thank you, Congressman. We are still in the 
process of reviewing all the particulars of the bill, so it is 
a little difficult for me to say what might happen and what 
might not happen under some of the individual provisions. But 
let me respond to it this way, that we have had a lot of 
conversations about the information that is useful and 
necessary to gather in order to make all kinds of 
determinations that might be required to be made under this 
bill. We have heard a lot of different opinions on that 
including from downstream manufacturers and some companies 
involved in the chemical distribution chain that think they 
need to have this kind of information that would be available 
under this or some other version of this bill in order to know 
what is going into the products or the chemicals that they are 
producing themselves using the ingredients that are available 
out there. By the same token we think it is important for the 
manufacturers of these chemicals to know the uses to which 
their chemicals are being put especially if they are going to 
be subject to some sort of aggregate cumulative exposure 
determination that we would make at the agency. So we want to 
make sure that there is a right balance that is struck here, 
and the types of information that we need to make the 
determinations that would be required again under this or 
whatever version of this bill might come forward gives us that 
level of information and meets the needs. We want to make sure 
also that one sector isn't unduly burdened at the expense of 
another sector. So that would be part of what we would be 
looking at when we were determining what the minimum data set 
requirements would be. Under new legislation if there is a 
requirement like that then there would be different types of 
minimum data requirements for different types of chemicals. And 
we would take the specifics of the individual chemical into 
account.
    Mr. Scalise. Thanks, Mr. Dooley, and then Ms. Bosley.
    Mr. Dooley. You know I think it would have some impact. 
This is an area where I think that you know we agree that you 
know that there has to be a greater degree of transparency than 
what currently occurs under TSCA. And there has to be a greater 
sharing of information throughout the valued chain. But I would 
also like to maybe segue, if this chemical distributor though 
was importing a product under the existing TSCA or under the 
legislation is that they would be subject to meeting all the 
requirements of this bill which would mean if you had a 
chemical distributor that just for discussion purposes was 
trying to import in this Blackberry, or maybe this sanitizer. 
If it was subject to the safety determination whether it was a 
chemical distributor, or Target, or Best Buy, they would be 
required to again to insure that they would have to do the 
determination of all the aggregate exposures again and also 
would be the ones that would be responsible for making the--
gathering the data to make the determination that this imported 
product did not pose a reasonable risk of harm. And we think 
that is a burden that is inappropriate to put on a distributor 
or a retailer on the importing of a particular article.
    Mr. Scalise. Thank you. Ms. Bosley.
    Ms. Bosley. I might say that as I said earlier I think 
yesterday afternoon we got some new language. There was a 
clerical error regarding mixtures and the way the bill reads 
now I guess I am more confused than anything, it is--the 
mixtures were taken out of the title but not the text. And it 
was taken out of certain sections but not other sections, but 
mixtures is where chemical distributors will be primarily 
affected. They do a lot of mixing and if they have to do--if 
they have to provide a safety determination on every mixture at 
every concentration it will inordinately affect them.
    Mr. Scalise. All right thank you. I yield back.
    Mr. Rush. The chair now asks unanimous consent that the 
following letters concerning the H.R. 5820 be entered into the 
record. A letter from American Chemical Counsel and others, 
American Cleaning Institute, Wilson Manufacturing Associates, 
and Consumers Special New Products Association, the National 
Association of Manufacturers, the National Association of 
Chemical Distributors, the Retail Industry Leaders Association, 
Crop Life America, the Vinyl Institute, Pine Chemicals 
Association, The People for The Ethical Treatment of Animals, 
and also a statement for the record from the National Special 
Chemical and Residents Association. Hearing no objections so 
ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. This concludes--is that including the--all right 
this concludes this hearing. The Chair really wants to be very 
intense in his appreciation for all the witnesses. This has 
been a real provocative and informative discussion. Your 
testimony has really contributed to the progress of the 
existing bill, and as we proceed with this bill with other 
additional hearings, and also with hopefully a mock up sometime 
in the future. So I want to thank each and every one of you. 
You have really done this Subcommittee a great service by your 
participation by your testimony and by the sacrifice of your 
time. Thank you so very much and the Subcommittee now stands 
adjourned.
    [Whereupon, at 2:40 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
